<html>
<title> - NOMINATION</title>
<body><pre>[Senate Hearing 111-930]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-930
 
                               NOMINATION 

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                     ONE HUNDRED ELEVENTH CONGRESS



                             FIRST SESSION



                               __________

                              MARCH 26, 2009

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web:
                        http://www.fdsys.gpo.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

65-249 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                COMMITTEE ON FOREIGN RELATIONS          

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York


                 David McKean, Staff Director         
        Kenneth A. Myers, Jr., Republican Staff Director        

                             (ii)          

  





















                            C O N T E N T S

                              ----------                              
                                                                   Page

Eikenberry, LTG Karl W., to be Ambassador to Afghanistan.........    10

    Prepared statement...........................................    12


Inouye, Hon. Daniel K., U.S. Senator from Hawaii.................     5

    Letter of support from Hon. Colleen Hanuabusa, President, 
      Hawaii State Senate........................................     6


Kerry, Hon. John F, U.S. Senator from Massachusetts..............     1


Lugar, Hon. Richard G., U.S. Senator from Indiana................     4


Warner, Hon. John, former U.S. Senator from Virginia.............     7

    Prepared statement...........................................     8

              Additional Material Submitted for the Record

Prepared Statements

    Dodd, Hon. Christopher J., U.S. Senator from Connecticut.....    32

    Feingold, Hon. Russell D., U.S. Senator from Wisconsin.......    33


Responses to Additional Questions Submitted for the Record

    Questions Submitted by Senator Kerry.........................    34

    Questions Submitted by Senator Casey.........................    35

    Questions Submitted by Senator Menendez......................    37

    Questions Submitted by Senator DeMint........................    38

                                 (iii)

  


                               NOMINATION

                              ----------                              


                        THURSDAY, MARCH 26, 2009

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

Karl W. Eikenberry to be Ambassador to Afghanistan
                              ----------                              

    The committee met, pursuant to notice, at 9:36 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Members present: Senators Kerry, Feingold, Casey, Shaheen, 
Kaufman, Lugar, Isakson, and DeMint.
    Also present: Senator Inouye and John Warner.

           OPENING STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. This hearing will come to order.
    Senator Warner, we kind of let our Ambassador--this is the 
first hurdle is getting by you. [Laughter.]
    The Chairman. Get him the rest of the way here.
    Well, it is a great delight to welcome our colleague 
Senator John Warner back. Sir John Warner--we are not allowed 
to use those titles over here. But he and my colleague Sir 
Edward have joined in an august group now of honorarily 
knighted public servants, and we are really delighted to 
recognize that honor, among many others, John. And it is great 
to have you back here.
    General Eikenberry, welcome. We are glad to have you here 
and look forward to a change in title, though I know a retired 
general never wants to be anything but a general, but you can 
wear the title of Ambassador, we hope, for a number of years 
here.
    All of us agree that Afghanistan, along with its neighbor 
Pakistan, represents the central front in the global campaign 
against terrorism. And in the coming days, this new 
administration is sending a new Ambassador to Afghanistan to 
implement a new strategy.
    At this crucial moment, after too many years of drift in 
the place where al Qaeda plotted 9/11, we need to get our 
policy right. In LTG Karl Eikenberry, the President has chosen 
an exceptionally skilled and deeply knowledgeable public 
servant to represent the United States in Afghanistan.
    General Eikenberry has already served two tours in 
Afghanistan, most recently as the top United States commander 
there from 2005 to 2007. He knows the local terrain. He knows 
the military side of the equation as well as anyone can. And I 
believe he is uniquely placed to get the civil-military balance 
right as Ambassador.
    It is clear that General Eikenberry is well equipped to hit 
the ground running, and this is absolutely vital because the 
situation is deteriorating at an alarming rate. The Taliban has 
been resurgent. Attacks are up. U.S. casualties have been 
increasing, and confidence in the Afghan Government's ability 
to deliver for its people has been waning.
    In a region of suspicious--of historically long-term 
suspicion about foreign footprints, we don't have a lot of time 
to waste in order to turn the tide. The President has pledged 
to recommit to Afghanistan, beginning with the deployment of 
17,000 additional U.S. troops and a significant effort to 
increase the size and the capacity of the security forces.
    In 2006, I argued that more U.S. troops were needed. I 
believe that, but I also believe they have to be very carefully 
tasked. The footprint has to be very carefully managed, and I 
emphasize troops alone are not going to bring victory.
    Later today, I really look forward to hearing from the 
administration about the results of the strategic review, and 
we have been briefed, to some degree, up until this point. But 
one thing is clear. Our military commitment has to be matched 
by a comprehensive, bottom-up strategy that acknowledges 
Afghanistan's history of decentralized governance and 
recognizes the capability of our international and Afghan 
allies.
    I agree with the President that our primary goal in 
Afghanistan is a simple one. It is to make sure that 
Afghanistan does not once again become a launching ground for 
terrorist attacks against America or our allies. That is our 
goal. Achieving this goal will involve improving governance at 
all levels and helping the Afghan Government to deliver better 
security and better services to the Afghan people.
    At next week's NATO summit, the President will ask our 
allies to do more to shoulder this burden. We have to persuade 
those countries unwilling to take on expanded combat roles to 
deepen their involvement in other aspects of the mission, 
including police training and development assistance.
    More will also be required from the Afghan Government. 
Corruption remains a powerful obstacle to progress. Too often 
the judicial system and police force drive Afghans to the 
Taliban. That is unacceptable.
    President Hamid Karzai has promised to address this chronic 
problem, but as we devote more resources and put more soldiers 
into harm's way, we have to insist on more in return.
    Afghanistan's Presidential elections this August will be 
crucial in restoring faith in the Afghan Government. We will 
watch closely, and we will work closely with the Afghans in 
order to make sure that that election is open and fair. We will 
not pick any winners. We will not back candidates. We want this 
to be a playing field where the Afghans freely and fairly 
choose their leadership.
    Even as we work to strengthen the performance of the 
central government, we must redouble our efforts to expand 
their ability to reach beyond Kabul, empowering women and 
working more closely with trusted provincial leaders to ensure 
that development funds reach the Afghan people.
    One promising model for success at the local level is the 
National Solidarity Program, which employs Afghans in 
reconstruction projects that have actually been requested by 
the village elders.
    One of the most vexing governance challenges is the 
flourishing narcotics trade, which provides a major source of 
funding for the Taliban. We need to provide greater subsidies 
and technical assistance for farmers who abandon poppy 
cultivation, as we have done in Nangarhar province, but we also 
must crack down on drug lords and reduce production, employing 
sustained force when necessary particularly in the Taliban 
stronghold of Helmand province.
    Our strategy must also reflect the interconnectedness of 
the region's challenges, and this requires redoubling our 
efforts to strengthen Pakistan's civilian government and 
support its activities against militants in the tribal belt. 
That is why Senator Lugar and I will shortly be reintroducing 
the Enhanced Partnership with Pakistan Act, which seeks to 
triple nonmilitary aid to the people of Pakistan while holding 
its security forces more accountable for assistance provided in 
their fight against the Pakistani Taliban and al Qaeda.
    We also need to reach out to Afghanistan's other neighbors, 
including India, China, and Iran. In 2001 and 2002, we should 
not forget Iran provided critical assistance to helping us 
stabilize Afghanistan, and the administration is absolutely 
correct to explore how our interests might again coincide on 
this issue, beginning at The Hague conference next week.
    We went into Afghanistan to hunt down al Qaeda and to 
replace the Taliban rulers because they refused, at that time, 
to break with al Qaeda and because they harbored those al Qaeda 
leaders with a legitimate government strong enough--our purpose 
in going in was to create a government strong enough to avoid 
the destabilization of a vital and volatile area.
    Today, that goal demands a more robust commitment of 
coalition troops and reconstruction aid. It is not too late to 
turn the tide in Afghanistan, as complicated as it may be. But 
only a comprehensive strategy, only sufficient resources and 
strong national resolve, and only competent leadership on the 
ground is going to lead us to that success.
    I thank General Eikenberry for joining us here today. I 
look forward to hearing his views on the way forward in 
Afghanistan.
    And again, we are delighted to also welcome one of our most 
distinguished and senior members of the Senate, Senator Inouye. 
I think, General, you couldn't have picked two more capable or 
respected members to introduce you here today.
    Maybe we will just have them introduce you, and we will 
forget the rest of the hearing. [Laughter.]
    But just about works that way, I promise.
    Senator Lugar.

              STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you very much, Mr. Chairman.
    I think you made an excellent suggestion with our 
colleagues John Warner and Dan Inouye. Just wonderful to have 
both of you here.
    I would just say, as you mentioned, Mr. Chairman, among the 
many important decisions being made in the first months of the 
new administration, certainly those with relationship to our 
engagement in Afghanistan and the surrounding region are among 
the most important.
    And I welcome Karl Eikenberry, who has been nominated to be 
our Ambassador to Afghanistan. General Eikenberry has served in 
numerous positions as a career military officer, including two 
stints in command of military forces in Afghanistan. He 
demonstrated exceptional diplomatic skill in these commands as 
well as in his current assignment as deputy chairman of NATO's 
Military Committee.
    As our Ambassador to Afghanistan, General Eikenberry will 
be able to draw upon extensive experience in engaging 
international partners and facilitating a more collaborative 
effort with the Afghans. I am encouraged by the renewed 
emphasis on Afghanistan as reflected in the appointment of 
Ambassador Holbrooke and the President's own statements about 
our policy.
    Nonetheless, many details need to be fleshed out as more 
resources and troops enter Afghanistan, and I look forward to 
hearing the nominee's impressions of the Obama administration's 
strategic review and of how we can improve Afghanistan's 
capacity to govern itself.
    For the last several years, our Government has struggled to 
gain greater European participation in Afghanistan. We are 
unlikely to succeed if military and political efforts in that 
country trend toward greater U.S. domination. Europe has strong 
incentives to cooperate closely with us to make the NATO 
mission a success.
    The September 11 attacks were planned in Afghanistan. Al 
Qaeda still operates there. The fate of the country remains 
both strategic and symbolic.
    The drug trade emanating from Afghanistan impacts European 
society, and the instability in Afghanistan poses a threat to 
other states in the region. There should be no doubt that 
Afghanistan is a crucial test for NATO. Alliance commanders 
must have the resources to provide security. They must have the 
flexibility to use troops to meet Afghanistan's most critical 
needs.
    President Obama's election was greeted enthusiastically by 
most Europeans. During his campaign, he made no secret of his 
intention to elevate the priority of the Afghanistan mission. 
It is essential the President and European leaders work 
together to finalize a plan for greater European commitment in 
Afghanistan.
    The appointment of a general to be our Ambassador in 
Afghanistan effectively highlights the importance of 
interagency coordination between our civilian and military 
institutions. In this regard, I hope to hear from the nominee 
today how he intends to employ the experience of senior 
diplomats in his country team. I also hope the President will 
soon announce his choice of an experienced and proven USAID 
mission director.
    In 2003, then-Senator Joe Biden and I introduced 
legislation to improve the capacity of civilian agencies to 
respond to national security crises. Since then, this committee 
has frequently emphasized and authorized greater civilian 
response capacity as a partner to our overtasked military.
    Defense Department leaders, led by Secretary Gates, Admiral 
Mullen, and General Petraeus, have recognized the necessity of 
such a civilian partner. Multiple reviews of our policy in 
Afghanistan and Iraq have concluded that up to 80 percent of 
activities necessary in post conflict and counterinsurgency 
situations are civilian tasks. Success in Afghanistan may 
depend on the attitudes of the people, the progress of 
reconstruction, and the development of the economy as much as 
it depends on battlefield victories.
    Last year, the Bush administration submitted a substantial 
fiscal year 2009 budget request to fund the Office of the 
Coordinator for Reconstruction and Stabilization at the State 
Department. I understand that this office is now fully 
participating in our interagency planning and deploying 
civilians to the region.
    The emergent Afghan strategy appears to direct the 
deployment of substantial additional civilian capacity 
alongside the military. I hope the forthcoming budget requests 
include at least as much as last year for the critical tasks of 
identifying, training, and deploying civilian experts, which 
would sustain the efforts to unify such interagency 
coordination in the current Office of the Coordinator for 
Reconstruction and Stabilization rather than build inefficient 
redundancies elsewhere.
    I appreciate very much General Eikenberry's willingness to 
take on an extremely difficult mission, and I look forward to 
his testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Inouye, thanks so much for being here with us. We 
appreciate it.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Mr. Chairman and distinguished members of 
the committee, I am pleased to be here this morning with 
Senator Warner to introduce LTG Karl Eikenberry, the 
President's nominee for Ambassador to Afghanistan.
    General Eikenberry's decorated career in the Army has given 
him myriad experiences that I believe will serve the new 
administration and our country superbly as United States 
Ambassador to Afghanistan.
    Throughout his military career, he has served in a number 
of positions that involve policy, strategy, and political and 
military skills. A number of these experiences occurred during 
the General's time as director of the strategic planning and 
policy at the United States Pacific Command at Camp Smith in 
Hawaii, where he interfaced with our neighbors in the Asia-
Pacific region.
    Following his experiences at the U.S. Pacific Command, his 
focus was placed on Operation Enduring Freedom. This is when 
General Eikenberry began to establish his working relations 
with the Afghan Government and our allies in the theater. Mr. 
Chairman and members, he possesses a thorough understanding of 
Afghanistan, its history, culture, and people. And on several 
occasions, the Senate Appropriations Defense Subcommittee 
called upon General Eikenberry to discuss events in East Asia 
and Afghanistan because of his expertise in this area.
    General Eikenberry's knowledge of both the military and 
diplomatic perspectives will be of great benefit as the United 
States Ambassador to Afghanistan. The challenges that face the 
new administration and the Department of State, as noted by 
you, Mr. Chairman and Senator Lugar, are immense. If General 
Eikenberry is confirmed--and I hope he is--the Department of 
State will gain from his expertise, the established 
relationship he has in Afghanistan, and the expeditious 
transition his nomination affords.
    Finally, Mr. Chairman, I request that a letter of support 
from the president of the Hawaii State Senate, the Honorable 
Colleen Hanabusa, be made part of the record.
    The Chairman. Without objection, it will be.
    [The letter from Hon. Colleen Hanabusa follows:]

                           Office of the President,
                                The State Senate of Hawaii,
                                                  Honolulu, Hawaii.
    Chairman Kerry, Senator Lugar, members of the committee.
    I write in strong support of Lt. Gen. Karl Eikenberry, who has been 
nominated to be the United States Ambassador to Afghanistan.
    As one of our country's most sensitive and delicate diplomatic 
assignment, it is critically important that our Ambassador to 
Afghanistan understands the culture, history and political landscape of 
the post. I can think of no better nominee for this position than Lt. 
Gen. Karl Eikenberry. He served in Afghanistan twice, including an 18 
month command tour that ended in 2007. He knows and has good relations 
with Afghan President Hamid Karzai. He recognizes, and is able to 
balance the political, social and economic challenges that confront 
Afghanistan, and I believe will do more to further our security 
interest in region than anyone before him.
    Mr. Chairman, as you have said yourself:

          At this crucial moment, after too many years of policy drift, 
        we simply must get our Afghanistan strategy right. With the 
        Taliban resurgent and U.S. troops increasingly at risk, we 
        cannot afford a continuation of the status quo. At such a time, 
        Karl Eikenberry brings exceptionally valuable skills to the 
        table. After two much-lauded tours of duty there, he knows the 
        military side of the equation as well as anyone can. In his new 
        civilian capacity, he is uniquely placed to get the civil-
        military balance right.

    Simply stated, Lt. Gen. Karl Eikenberry, is the right man for the 
job.
            Sincerely,
                                          Colleen Hanabusa,
                                    President, Hawaii State Senate.

    Senator Inouye. I thank you, sir.
    The Chairman. Thank you so much, Senator Inouye. We know 
how busy you are with the budget and everything right now. We 
really appreciate you taking time.
    Thank you.
    Senator Inouye. He is a good man. I hope you will pass him 
out today.
    The Chairman. Well, as soon as Senator Warner stops 
talking, we are going to take a vote. [Laughter.]
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I would first say how pleased I am to be with you, Senator 
Inouye, and you are free to go now. I will take charge. You can 
go on about more important matters. [Laughter.]
    Senator Inouye. Seriously, may I be excused?
    The Chairman. No, we did. And I completely understand. You 
are in the middle of very important budget issues. So thank 
you.
    Senator Warner, is your mike on?
    Senator Warner. I do see this red light.
    The Chairman. OK. Great.

                STATEMENT OF HON. JOHN WARNER, 
               FORMER U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, and my dear 
friend, Senator Lugar. Both of you have been dear friends of 
many, many years, and other colleagues here.
    I think I will ask unanimous consent that my statement be 
placed in the record.
    The Chairman. Without objection, in full in the record.
    Senator Warner. And I listened carefully to two very well 
drafted and delivered opening statements, and much of that 
material is in my text, but I think, Senator Kerry, you hit on 
it. It is the need to get the right balance in Afghanistan 
between all parties involved in that area.
    And Senator Lugar, I am so glad you touched on the need for 
the interagency cooperation. When I was privileged to chair the 
Armed Services Committee, hearing after hearing, pleading with 
the various agencies and departments of the Government to make 
their contributions because, as you pointed out, Mr. Chairman, 
it cannot be a military operation alone. It is a coordinated 
effort.
    And if I could just say a few personal things? As you know, 
I have been privileged--I was just sitting here and made a 
little note. Thirty-seven years ago, I went into the Pentagon, 
and you, Senator Kerry, went right on the front lines in 
Vietnam in those days when I was Secretary of the Navy.
    I only point that out that all those 5 years in the Navy 
Department, I really saw and worked with many, many fine flag 
officers and general officers, and then continuing in the Armed 
Services Committee those 30 years, again, many, many hearings 
such as this involving the confirmation of our wonderful people 
who attain the ranks of flag and general officer. This man is 
simply one of the most outstanding I have ever met, and that is 
where I was pleased to be invited to come today.
    As each of you said, we should commend our President for 
having made this nomination. And I am sure he did it with the 
advice of the distinguished Secretary of State, our former 
colleague.
    That was a bold decision by Secretary Clinton to reach down 
to an Active-Duty officer, and then for that officer to express 
the willingness to resign that commission subject to 
confirmation by the Senate. That is the type of bold 
initiatives that I hope this administration continues to take.
    I have great respect--of course, all of us do--for the 
professional corps who serve in the Department of State. But 
every now and then, there comes such a unique situation as this 
that you reach out and find wherever you can that one 
individual who combines all of the complex issues that are 
facing this theater.
    As you pointed out, not just military, but it is 
diplomatic. Afghanistan is flanked by Iran and Pakistan, and 
the pressures and problems there are brought to bear in his 
work in Afghanistan.
    But this gentleman, I just would like to add one thing 
about all of the things that he has done. He is a soldier 
first, but he is a scholar, an extraordinary scholar in his 
attainments in the academic world.
    He is a graduate of the academy. He has earned his master's 
degree from Harvard University in East Asian studies, from 
Stanford University in political science. He was a national 
security fellow at Harvard's Kennedy School of Government.
    He earned an interpreter's certificate in Mandarin Chinese 
from the British Foreign Commonwealth Office while studying at 
the United Kingdom Ministry of Defense Chinese Language School. 
And he has an advanced degree in Chinese history.
    A rare combination of soldier, scholar, and, subject to the 
wisdom of this wonderful body, the United States Senate, he can 
add a third title--after a period of time earning it--of 
statesman. But he has done that in many respects already.
    But I mention, having looked at so many confirmation 
processes involving, this truly was a remarkable individual for 
this administration to find. And with his lovely wife, who is 
going to be introduced momentarily, they will take on this 
heavy responsibility, as each of you pointed out.
    So, with that, I would conclude my remarks and thank you, 
General, first for the privilege of being with you today and 
saying a few words. And second, as simply a citizen of this 
country, we are all grateful for your public service to date 
and your next chapter, which is about as important as any that 
you have undertaken thus far, if not the most important.
    Good luck to you.
    General Eikenberry. Senator, thank you for those very kind 
words.
    Senator Warner. Thank you. I thank the chair.
    The prepared statement of Senator Warner follows:]

                Prepared Statement of Hon. John Warner, 
                   Former U.S. Senator From Virginia

    Mr. Chairman, Senator Lugar, it is my privilege today to join 
Chairman Inouye to introduce Karl Eikenberry, the nominee to be the 
next United States Ambassador to Afghanistan. I commend the President 
and the Secretary of State for this outstanding nomination.
    In anticipation of the administration's formulating, in 
consultation with NATO, a new strategy for the war in Afghanistan, the 
nomination of Karl Eikenberry for this post comes at a challenging 
moment. Lieutenant General Eikenberry is a gifted military officer 
whose intellect, experience, and character will serve our Nation well 
in this critical posting.
    Karl Eikenberry comes to this nomination with a military career of 
remarkable accomplishment that began nearly 40 years ago when he 
entered the United States Military Academy as a cadet in 1969.
    General Eikenberry currently serves as the Deputy Chairman of the 
North Atlantic Treaty Organization (NATO) Military Committee in 
Belgium. He has had two tours in Afghanistan. First, as U.S. Security 
Coordinator and Chief of the Office of Military Cooperation in Kabul 
from 2002 to 2003 and later as the Commander of the Combined Forces 
Command-Afghanistan from 2005 to 2007.
    It is during these three postings that I had the opportunity on 
numerous occasions to visit and consult with him. He knows Afghanistan 
like few Americans. He knows many in the Afghan leadership. He knows 
many in the military leadership of U.S., NATO, and Afghan forces. He 
knows and understands the important role played by our allies. He knows 
the regional context through which we must increasingly view the 
complex nature of the mission in Afghanistan, many components of which 
are joint and combined.
    At this pivotal moment in our mission in Afghanistan, we are 
fortunate to have a public servant who possesses this unique and 
exceptional record of experience.
    General Eikenberry won my respect and admiration during my earliest 
visits to Afghanistan. I always appreciated the extensive time he spent 
with our congressional delegations and especially appreciated the time 
he would spend meeting with members of the Armed Services Committee 
when he was in Washington. His observations were always candid and 
frank.
    As I came to know General Eikenberry and learned more of his 
background, I came to appreciate more fully his exceptional and unique 
skills.
    Lieutenant General Eikenberry is a graduate of the U.S. Military 
Academy. He has earned master's degrees from Harvard University in East 
Asian Studies and from Stanford University in Political Science, and 
was a National Security Fellow at the Harvard's Kennedy School of 
Government. He earned an Interpreter's Certificate in Mandarin Chinese 
from the British Foreign Commonwealth Office while studying at the 
United Kingdom Ministry of Defence Chinese Language School in Hong Kong 
and he has an Advanced Degree in Chinese History from Nanjing 
University in the People's Republic of China.
    Lieutenant General Eikenberry has served as commander and staff 
officer with mechanized, light, airborne, and ranger infantry units in 
Hawaii, Korea, and Italy. In addition, he has served in various 
strategy, policy, and political-military positions, including: Director 
for Strategic Planning and Policy for U.S. Pacific Command; Assistant 
Army Attache and later Defense Attache at the United States Embassy in 
China; and Senior Country Director for China, Taiwan, Hong Kong, and 
Mongolia in the Pentagon.
    In addition to numerous and significant military awards, General 
Eikenberry has received the Department of State Meritorious and 
Superior Honor Awards, Director of Central Intelligence Award, and 
decorations from the Governments of Canada, the Czech Republic, 
Hungary, France, and Afghanistan.
    Chairman Kerry, Senator Lugar, members of this committee, our 
Nation has benefited greatly from his professionalism since 1969 and I 
am confident that, subject to Senate confirmation, he will bring to 
this position that same professionalism, experience, and expertise that 
are especially crucial during this challenging period. I am honored to 
present General Eikenberry to this distinguished committee and I 
strongly and unreservedly endorse his nomination.

    The Chairman. Well, Senator Warner, let me say in all 
seriousness that we joked around a few moments ago about the 
importance of your two testimonies. But I must say to you, 
General, in the years that I have been here--and it is about 26 
on this committee--and Senator Lugar, listening to Senator 
Warner describe you and his rationale for supporting this 
really does underscore the value of your nomination.
    And I think I have heard Senator Warner give introductions 
before through the years, and when he refers to 37 years and 
puts you at the top of the list, as he just did, that is high 
praise, indeed.
    So, Senator Warner, thank you for taking the time to be 
with us.
    Senator Warner. Thank you, Mr. Chairman.
    The Chairman. And once again, we thank you for your 
remarkable years of service here. We miss you.
    Senator Warner. Thank you very much. I wish you all well. 
These are unique times in the history of this great Nation.
    The Chairman. Thank you, John, very much.
    General, the floors is yours. We look forward to your 
testimony, and we would like you to introduce any family 
members that are here with you and welcome them here.

              STATEMENT OF LTG KARL W. EIKENBERRY 
                TO BE AMBASSADOR TO AFGHANISTAN

    General Eikenberry. Thank you, Mr. Chairman, Senator Lugar, 
members of the committee.
    I am honored to appear before you as the nominee for the 
office of the Ambassador of the Islamic Republic of 
Afghanistan. I would like to thank President Obama, Secretary 
Clinton for their confidence in me.
    If confirmed, I would be very proud and honored to join the 
ranks of the United States Government personnel who are serving 
in Afghanistan, and I would look forward to consulting with you 
regularly and hosting you often in Kabul.
    I wanted to thank Senator Inouye and Senator Warner for 
their very generous words of introduction.
    And in turn now, I would like to introduce my spouse, 
Ching, seated behind me.
    The Chairman. Welcome. Glad to have you.
    General Eikenberry. Her support, as well as that of my 
entire family, has allowed me to pursue a career of national 
service.
    And I would also wish to mention my mother, Mary Drucilla, 
whose health restricts her to bed, but she is keeping watch on 
me today from her care center in Raleigh, North Carolina, 
courtesy of television. This is a very big moment for her, and 
it is a very humbling one for me.
    Last, if I could introduce Ambassador Frank Ricciardone, a 
very great diplomat and statesman who many of you know well. 
Ambassador Ricciardone led the missions in the Philippines and 
Egypt and, with great selfless service and setting an 
absolutely superb example, has now volunteered to go into 
Afghanistan to serve as the deputy.
    And if I am confirmed, I would look forward to forming a 
great team with Ambassador Ricciardone. Thanks, Frank.
    If I am confirmed, I will assume this great responsibility 
conscious that success in both Afghanistan and in Pakistan is 
in America's vital national security interest. Afghanistan is 
where the cold-blooded September 11, 2001, attacks upon the 
United States were conceived and they were directed.
    Even as we speak, al Qaeda and their allies operate inside 
of Afghanistan and from across the border in Pakistan. They 
seek to create fear and chaos inside of Afghanistan and 
Pakistan in order to regain the territorial control that 
allowed them to so horrifically overturn the peace and 
tranquility of our homeland 7 years ago.
    I am proud of my 40 years of service to my country, and 
Afghanistan has been at the center of my career since 9/11, 
when the terrorists' commandeered aircraft crashed into the 
Pentagon just below the office in which I was working. My 
professional experience inside of Afghanistan has reinforced 
what I have learned throughout my career, that lasting security 
can only be delivered through coordinated diplomatic, economic, 
and military means.
    The situation in Afghanistan is increasingly difficult, and 
time is of the essence. There will be no substitute for more 
resources and sacrifice. However, I believe with the 
President's leadership and direction and with the support of 
the United States Congress, we can and must foster the 
conditions for sustained success inside of Afghanistan and 
Pakistan.
    If confirmed, I will work closely with NATO and with U.S. 
military commanders, United States Government agencies, and our 
international partners to ensure that all elements of national 
power are brought to bear in mutually reinforcing ways. I will 
ask for your support to provide the resources needed to make 
such an effort possible.
    Our national efforts inside of Afghanistan require the wide 
range commitment of civilian expertise. In order to attract the 
best and the brightest, we must recognize their service and 
support their professional development with greater vigor.
    And while success in Afghanistan and Pakistan is vital to 
U.S. national security interests, it is also a global security 
concern, and accordingly, we must redouble our efforts to gain 
additional contributions from our allies and from the 
international community.
    Critical to our collective progress is helping the Afghans 
strengthen and expand their national army and police so that 
they have the essential capability to secure their own country. 
The way ahead is clear, but the resources to date have, 
regrettably, been insufficient.
    The United States, our international partners, and most 
importantly, the Afghans must work together to reduce 
corruption and strengthen the rule of law. Without real 
progress on these issues, success will be very difficult to 
achieve.
    Today's sobering reality is that Afghanistan supplies more 
than 90 percent of the world's illicit opiates. It fuels the 
insurgency, and it undermines our efforts to develop 
governance. With special representative Richard Holbrooke and 
other key players, I will review our counternarcotics policy as 
a matter of urgency.
    More development and more aid must be channeled to those 
areas where the insurgency is rife. Even more important, 
assistance must be directly targeted to the Afghan people. 
Currently, too much development money is spent on costly 
overheads, namely, foreign consultants, multiple contracts, and 
security.
    On August the 20, Afghanistan will hold its second 
presidential and provincial council elections. The United 
States is committed to supporting the Afghans in pursuit of 
elections that are fair and free of intimidation.
    The administration is emphasizing a regional approach to 
the security challenges in both Afghanistan and Pakistan. And 
if I am appointed as Ambassador, I will work closely with 
Ambassador Holbrooke and Ambassador Patterson in Islamabad to 
achieve this goal.
    If you would permit me, Chairman, I would like now to close 
with a few words directed directly to the people of 
Afghanistan.
    It is evident to me, after having the privilege of serving 
in your country, that you share with Americans an overwhelming 
desire to live in peace with dignity. With our support, you 
will further develop accountable governance, a patriotic army 
and police that serves to protect you, access to health care 
and education, and employment opportunities to provide for the 
livelihoods of your families.
    When you achieve your goals, international terrorists will 
find no refuge inside of Afghanistan, and this is precisely 
where your interests, America's interests, and, indeed, the 
interests of the entire world come together. Your success is 
our success.
    Mr. Chairman, if confirmed, I will be deeply grateful for 
your continued support and for your advice. I fully understand 
the challenges that I now face and would face in the years to 
come. I am committed to working with the U.S. Congress to 
ensure effective communication and coordination of our policies 
and our programs.
    I again thank the President, Secretary Clinton, and the 
United States Senate for this opportunity. I would be greatly 
honored and very humbled to serve.
    Thank you, Mr. Chairman.
    [The prepared statement of General Eikenberry follows:]

   Prepared Statement of LTG Karl W. Eikenberry, Ambassador-Designate
                for the Islamic Republic of Afghanistan

    Mr. Chairman, Senator Lugar, members of the committee, I am honored 
to appear before you as the nominee for the office of Ambassador to the 
Islamic Republic of Afghanistan. I'd like to thank President Obama and 
Secretary Clinton for their confidence in me. If confirmed, I would be 
proud and honored to join the ranks of United States Government 
personnel serving throughout Afghanistan. And I will look forward to 
consulting you regularly and hosting you in Afghanistan often.
    I would like to thank Senator John Warner and Senator Daniel Inouye 
for their generous words of introduction.
    In turn, I would like to introduce my spouse, Ching, seated behind 
me. Her unwavering support, as well as that of my entire family, has 
allowed me to pursue a career of national service. I would also like to 
mention my mother, Mary Drucilla, whose health restricts her to bed, 
but is keeping watch on me today from her care center in Raleigh, North 
Carolina, courtesy of television. This is a big moment for her and a 
humbling one for me.
    If confirmed, I will assume with respect this great responsibility, 
conscious that success in both Afghanistan and Pakistan is in America's 
vital national security interest. Afghanistan is where the cold-blooded 
September 11, 2001, attacks on the United States were conceived and 
directed. Even as we speak, al Qaeda and their allies operate inside 
Afghanistan and from across the border in Pakistan, where they daily 
plan mass attacks against the United States, Europe, South Asia, the 
Afghan state and people, and Pakistan itself. They seek to create fear 
and chaos in Afghanistan and Pakistan in order to regain the 
territorial control that allowed them to so horrifically overturn the 
peace and tranquility of our Homeland 7 years ago. The collective 
purpose and unswerving mission of our Nation, the Afghan people, our 
NATO allies, and indeed the international community, are to act 
decisively, so that our children and our grandchildren will never 
endure such acts of terrorism in their lifetimes.
    I am proud of the almost 40 years of service to my country that has 
taken me from West Point to infantry and political-military assignments 
in the United States, Asia, and Europe. Afghanistan has been at the 
center of my career since 9/11 when the terrorist-commandeered aircraft 
crashed into the Pentagon just below the office in which I was working. 
You have the records of my subsequent service during two different 
assignments in Afghanistan from 2002-03 and again from 2005-07. During 
the past 2 years, serving at NATO Headquarters in Brussels, Belgium, I 
have remained deeply engaged in the Afghanistan mission. Throughout my 
time in Afghanistan, I led and worked with courageous American 
civilians and servicemen totally committed to defending our Nation 
under the most difficult and dangerous conditions. My professional 
experiences in Afghanistan have reinforced what I have learned 
throughout my career--that it is the coordinated application of 
diplomatic, economic, and military means, anchored by effective 
strategic communication, that delivers lasting success when dealing 
with international security threats and challenges.
    The situation in Afghanistan is increasingly difficult. Time is of 
the essence. There are areas of instability and poor governance inside 
the country and threatening dangerous terrorist sanctuaries beyond its 
borders. Within these spaces, extremists try to exploit the weakness of 
the existing political system to impose their own vision of social 
order characterized by brutality and barbarism. There is no silver 
bullet and no quick, cheap, or easy solutions. There is no substitute 
for more resources and sacrifice. Nevertheless, I believe with the 
President's leadership and direction, and the support of the Congress, 
we can and must foster conditions for sustained success in Afghanistan 
and Pakistan.
    There is no exclusively military solution to the issues we and our 
partners confront in Afghanistan. If confirmed, I will work closely 
with military commanders and relevant government departments and 
agencies to ensure that all elements of national power are brought to 
bear. I will ask for your support to provide the resources that will 
make such an effort possible.
    One of my primary goals will be to integrate civilian and military 
strategies, capabilities and activities on the ground, working closely 
with the NATO International Security Assistance Force (NATO-ISAF) 
command. Our clear, hold, build, and sustain strategy depends upon 
protecting the Afghan people. At a minimum, this includes providing 
continuous security, enhanced governance and rule of law, and a 
sustainable legitimate economy. It requires delivering the 
comprehensive approach that effectively combines military and civilian 
capabilities.
    Our national efforts in Afghanistan require the commitment of a 
wide range of civilian expertise to mentor judicial branch 
professionals, train school administrators and teachers, develop an 
agricultural system, and facilitate the growth of small and medium 
business enterprises to reduce the numbers of unemployed who are easy 
recruitment targets to the ranks of violent nihilistic extremism. In 
order to attract the best and brightest civilian personnel, we must 
recognize their service and support their professional development with 
greater vigor.
    It is important to remember that while success in Afghanistan and 
Pakistan is vital to U.S. national security interests, it is also an 
urgent global security concern, with associated international 
commitments and obligations. The United Nations has a significant and 
comprehensive development mandate in Afghanistan, which has just been 
renewed unanimously by the U.N. Security Council. NATO leads the U.N.-
mandated ISAF mission in Afghanistan. Many international organizations 
and actors--the European Union, the World Bank, and numerous superb 
NGOs--to mention only a few--are also present. We expect that our 
partners will join our Dutch hosts and the Afghan Government in The 
Hague on March 31 to reinvigorate our shared commitment to Afghanistan. 
We will redouble our efforts to gain additional contributions from our 
allies and the international community in areas where it is reasonable 
and essential for them to do more.
    Critical to our collective progress is helping the Afghans 
strengthen and expand both their National Army and Police so that they 
have the essential capability to secure their own country.
    The Focused District Development (FDD) program is the centerpiece 
of our efforts to develop a reliable and capable Afghan police force in 
troubled and insecure districts. Such measures, coupled with 
commensurate governance, rule of law, and rural development 
initiatives, show promise. However, in the absence of sufficient 
international and Afghan Army forces, police mentors, and complementary 
aid measures, there will be no lasting success. The way ahead is clear, 
but the resources to date have been regrettably insufficient.
    It is well understood that we must strongly encourage and support 
the Afghan people to establish accountable, sustainable, and effective 
governance. This includes helping them build the capacity to deliver 
essential government services and rule of law, including continued 
development of traditional forms of dispute resolution to ensure 
protection for the rights of the Afghan people, especially women. 
Security against terrorists and criminals is essential, but so too are 
justice and equity for all. Afghans must feel a beneficial and 
protective presence from a legitimate government from urban centers to 
the remotest villages.
    The United States, our international partners, and most 
importantly, the Afghans, must work to reduce corruption and strengthen 
the rule of law. Without real progress on these issues, success will be 
very difficult to achieve. We need to expand training and education for 
Afghan judicial and law enforcement officials who are dedicated to 
serving their people's access to justice and protection.
    Today's sobering reality is that Afghanistan supplies more than 90 
percent of the world's illicit opiates. The corrupting effect of drugs 
and the steady revenue stream provided by the narcotics trade fuel the 
insurgency and are a scourge, eroding Afghan aspirations for security, 
government probity, and economic development. We must acknowledge that 
the drug trade also affects Afghanistan's neighbors, who suffer from 
high rates of addiction and narcotrafficking associated crime and 
violence. Accordingly, a coordinated and cooperative regional approach 
is essential to counter this growing threat.
    With Special Representative Richard Holbrooke and other key 
players, if confirmed, I will review our counternarcotics policy as a 
matter of the highest urgency.
    Afghanistan's low revenue base, excessive corruption, high poverty, 
and lack of economic and social services infrastructure present 
formidable challenges, yet they are not insurmountable. Our foreign 
assistance has supported gains in Afghan society. To illustrate, infant 
mortality has dropped 22 percent, there is increased access to quality 
health care for Afghans living in rural areas, an impressive 5.8 
million children have been enrolled in schools since the ousting of the 
Taliban, and power generation is increasing with hope for the provision 
of continuous electricity in Kabul later this year.
    However, there must be better coordination between the various 
international donors to avoid duplication of efforts, there must be 
better prioritization of initiatives, and more aid must be channeled to 
the eastern and southern provinces where insurgency, narcotrafficking, 
and corruption are rife. Even more important, assistance must be 
directly targeted to the Afghan people, fostering the capacity for 
civic society development and enhancing their standards of living. 
Currently, far too much development money is being spent on costly 
overheads--namely foreign consultants, contracts, and security 
expenditures.
    On August 20, Afghanistan will hold its second Presidential and 
provincial council elections. For the first time in their history, the 
Afghans are leading the preparations for the elections. It is important 
that these elections be fair and free of intimidation, demonstrating to 
the Afghan people and the world that they are fully capable of 
exercising their electoral rights of choosing those who will govern 
them. The United States is committed to supporting the Afghans in 
pursuit of this goal.
    Much has been said recently regarding the potential for 
reconciliation between the Government of Afghanistan and the Taliban. 
The United States will continue to support an Afghan-led process, 
seeking to encourage Taliban and other insurgent groups to lay down 
their arms, commit to supporting the Afghan Constitution and cut all 
ties to al Qaeda and other international terrorist groups.
    The administration is emphasizing a regional approach to the 
security challenges in both Afghanistan and Pakistan based upon their 
obvious linkages. This has been highlighted with the appointment of 
Ambassador Richard Holbrooke as Special Representative for Afghanistan 
and Pakistan. If I am appointed as Ambassador, I will work closely with 
him and colleagues within the region to support related diplomacy.
    I will close with a few words directly to the people of 
Afghanistan. It is evident to me after having the privilege of serving 
in your country that you share with Americans and all peoples of the 
world an overwhelming desire to live in peace with dignity. With our 
support, you strive with your own unique talents and steady 
determination, to create accountable governance, a patriotic and 
responsive army and police that serve to protect you, access to 
justice, health care and education, and growing opportunities to 
provide for the livelihood of your families and proud nation in 
honorable ways. After three decades of war and turmoil, you desire to 
fully reclaim your nation. When you achieve your goals, international 
terrorists, narcotrafficking criminal gangs, and militant extremists 
will find no witting safe haven. This is where your interests, 
America's interests, and indeed those of the region and the world come 
together. Your success is our success, and you are worthy allies.
    Mr. Chairman, if confirmed, I will be deeply grateful for your 
continued support and advice. I fully understand the challenges I face 
now and in the years to come. I am committed to working with Congress 
to ensure effective communication and coordination of our policies and 
programs.
    I again thank the President, Secretary Clinton, and the Senate for 
this opportunity. I would be greatly honored and humbled to serve.

    The Chairman. Thank you very much, General. We appreciate 
it.
    And let me comment myself on your very distinguished 
academic career, as well as the many different kinds of posts 
that you have held. I think it is a great asset, and you bring 
a lot of different skills to this, not the least of which 
having survived being a student at Harvard. We think that is 
great.
    Share with us--one of the questions, I think, on the minds 
of the committee and some people is you did put in two tours 
there. And so, while you have the experience, you have also 
been there during a period of time when things have gotten 
worse. And I think people want to have an understanding of what 
your interpretation of that is.
    I mean, why have the Taliban been able to resurge? And what 
have been the most critical missing elements of our strategy, 
and what will be different, in your judgment, going forward?
    General Eikenberry. Mr. Chairman, looking back, to 2001 and 
2002 to assess why are we where we are now, why it is 
increasingly dangerous and difficult in Afghanistan, first and 
foremost is the problem of Taliban sanctuary inside of 
Pakistan. When we went into Afghanistan in 2001 and 2002, we 
did quickly defeat the Taliban. We did quickly dismantle al 
Qaeda.
    We pushed them into of Pakistan. However, over the years, 
they increased of their capabilities and not only caused chaos 
and insecurity in Pakistan, but also undermined our efforts in 
Afghanistan.
    But that is not the entire problem. as well. We have not 
had sufficient military forces on the ground inside of 
Afghanistan, which has led then to an inability to provide 
sufficient security, especially in eastern and southern 
Afghanistan. There has been insufficient efforts to build the 
Afghan National Army and Afghan National Police. We are doing 
better with the army, but still falling short with the police.
    And then, most important, as you said during your own 
opening remarks, Mr. Chairman, an inadequate effort on the 
nonmilitary side. Insufficient civilian expertise to help the 
Afghans build their institutions of the state, insufficient 
nonmilitary resources, especially reconstruction aid and 
programs focused in rural areas, focused in critical 
institution building.
    The Chairman. At what stage would you say the insurgency is 
at this point, and how complicated is it going to be to unravel 
the gains that they have made, particularly in the south?
    General Eikenberry. It is going to require, Mr. Chairman, 
additional commitment of U.S. and, importantly, NATO forces 
into eastern and southern Afghanistan to get a more lasting 
presence throughout the rural areas.
    It is going to require additional efforts to more rapidly 
develop the Afghan National Police and the Afghan National 
Army.
    It is going to require also more effective aid programs in 
eastern and southern Afghanistan in order to develop the 
economy so that the people have alternatives to the Taliban and 
to extremism.
    And then, very importantly will be a coordinated regional 
approach with Pakistan.
    The Chairman. Is it fair to say that you felt these--the 
frustration of not being able to fill these gaps while you were 
there and even expressed the requirements for additional 
resources?
    General Eikenberry. Chairman, it became evident in--by 2006 
that the security situation was beginning to slip inside of 
Afghanistan, and at that time, together with Ambassador Ron 
Neumann, requested additional forces. And in 2006, we reversed 
the steady decline in U.S. military forces that began in 2005.
    It was also evident at that time in 2006 that more 
assistance was needed for the Afghan National Army. We 
requested a significant increase in the size of our training 
program for the army, and we also made proposals for the 
buildup of the police. But even this was insufficient.
    The Chairman. Do you believe that the doubling of the 
Afghan army as a goal will be sufficient, and is it doable?
    General Eikenberry. It is necessary, Mr. Chairman. The 
previous goal for the size of the Afghan National Army was 
80,000, and it is now 134,000. I think we have confidence that 
the Afghan National Army is at a point where they can move 
forward and build a force of 134,000.
    But this will be very contingent ultimately on our ability 
to deliver a sufficient number of trainers and the equipment 
that the Afghan National Army needs to get to that target. And 
this is a requirement not only for the United States, but for 
our NATO allies and our partners.
    The Chairman. There is an article today on the front page 
of the New York Times talking about ISI, the Pakistani 
intelligence's involvement in supporting the Taliban and 
facilitating some of what they have been able to achieve. Would 
you comment on that?
    General Eikenberry. Pakistan has a very unclear and 
ambiguous relationship, and the Pakistan Army, and ISI in 
particular have had a very unclear and ambiguous relationship 
with the Taliban over the last 15 years. Pakistan, of course, 
and its security forces and the ISI are the ones that 
facilitated the rise of the Taliban when it first advanced into 
Afghanistan in the mid-1990s. And since that time, it has been 
unclear if all elements of ISI have dropped their support for 
Taliban and their extremist allies.
    The ongoing discussions that we have right now with 
Pakistan, and with Afghanistan, are focusing on this problem. I 
know that the trilateral initiatives that have begun under the 
administration led by Secretary of State Clinton have appeared 
promising. I know that in early May, there are another set of 
talks between Afghan, Pakistan, and United States leaders, 
which will include intelligence exchanges.
    We must continue to promote cooperation and collaboration 
between the United States, Pakistan, and with Afghanistan as 
well.
    The Chairman. General, let me just say, as I turn it over 
to Senator Lugar, it is my understanding that you are hoping--
up until now, the post of Ambassador in Afghanistan has been an 
unaccompanied post, as we call it. I know you are hoping to 
take your wife there with you, and I think I certainly and I 
think the committee are entirely supportive.
    I think it would be a terrific message and strong boost of 
morale for the Embassy. And obviously, wherever possible, we 
should try to encourage that. So I hope that that will be 
facilitated.
    General Eikenberry. Mr. Chairman, thank you very much for 
that support.
    The Chairman. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    General, if you could discuss a little bit from your 
background in Afghanistan the conflicting theories there are 
with regard to why the people of Afghanistan, starting with 
their government and their military, but likewise the people, 
will be cooperative in rejecting al Qaeda. But then, even more 
complex, rejecting leadership by the Taliban.
    I mean, we have had discussions, at least in the press, of 
different kinds of Taliban. Those that seem to be of the 
insurgent variety and prepared, really, to take steps with arms 
to disrupt affairs as opposed to others who simply have a 
theological point of governance that may be coincident with 
many citizens of Afghanistan.
    And it has not ever been clear to many of us as to how, as 
you take a look at opinion polls in Afghanistan and their 
feelings about Americans or about Europeans--NATO and so 
forth--clearly an ambivalence as to what they feel sometimes or 
the destruction caused by the troops, albeit as they are 
searching for insurgents or al Qaeda, but losses of life in 
Afghanistan to people that claim to be innocent civilians or to 
their property.
    And so, as a result, although we have plans for sending 
more troops there, we are encouraging our European allies to do 
so. But at the same time, we are encouraging civilian 
components that may be working on commerce and agriculture and 
education and so forth. How diplomatically can this fit 
together?
    I ask this because there will be debates in the Congress--
there have been, I foresee more in the future--not only on the 
chairman's question of how many soldiers are required in the 
Afghan army, but likewise, how competent will the police ever 
become, given all the charges of corruption?
    And after it is all said and done, what will be the general 
judgment of the Afghan people about this governance? Their 
own--that is the army, the police, President Karzai or his 
successor, as the case may be--accompanied by our aims as 
Americans and our aims as NATO allies to suppress the Taliban, 
suppress the threat to us that might occur in European capitals 
or in Washington, DC.
    Can you sort of give from your experience how this works 
out into a situation where the plans we have may be acceptable 
as opposed to resisted by the Afghan people? And why we would 
be any more successful with more troops coming in now from any 
source than we have been in the past?
    General Eikenberry. Senator, the starting point is the 
Afghan people's opinion of theTaliban. Every poll today shows 
that over 90 percent of the Afghan people firmly reject 
Taliban. They reject the dark Taliban primitive ideology and 
barbarous rule.
    The challenge for the Afghan people is that while they 
totally reject Taliban, they need a secure alternative provided 
for them. If coerced, without any alternatives, then they will 
go to the side of the Taliban.
    How do we provide that alternative? We need to create three 
candidates to change things in parts of Afghanistan where the 
Taliban has control. First of all, we have to be able to secure 
the Afghan people. The hearts and minds of the Afghan people 
may be with us during the daytime, but if in the nighttime the 
Taliban comes into their village, then their mind is with the 
Taliban.
    So we have to be able to provide more security. That gets 
back, Senator, to the question about how many troops are 
needed? And it is not a question necessarily of how many 
troops, it is a question of what are those troops doing? Are 
they out and about? Are they mixed with the Afghan people? Are 
they partnered with the Afghan national security forces?
    Second, we need to help the Afghans improve the rule of 
law. Without that, security does not rest on a foundation.
    And then third, and very importantly, and the point that 
you had made, Senator, when we were together earlier this week, 
the need to think very clearly through the reconstruction 
development programs, trying to get rural economies developed, 
trying to create a sustainable system of commerce so the 
Afghans then are able to build a middle ground of civil society 
that they can stand upon. And when that is established, they 
will defend that.
    With regard then to the growth of the Afghan national 
security forces, Senator, I think that the numbers that are 
being discussed right now are about right. It may have to be 
reviewed in the future. If I were confirmed, of course, I would 
look forward to working closely with the military commands in 
trying to make joint assessments.
    Senator Lugar. Well, thank you very much. That is a very 
concise and comprehensive statement.
    Let me ask, we have all talked now about the integration of 
the civilian persons. How is that likely to work more 
effectively than it has in the past? Civilians from America or 
from Europe.
    General Eikenberry. I think we need a combination, Senator, 
of more civilian capacity inside of Kabul to help build key 
institutions, such as the Ministries of Agriculture, Health, 
and Interior.
    But we need even more civilian expertise out in the 
regions. And that will require more agricultural experts, more 
justice experts, more small city managers to help governors 
develop their provinces and districts.
    We will have to be well partnered with the military--with 
the NATO and U.S. military--which will have to provide some 
assistance in terms of logistics and security to support the 
increase of civilian personnel and diplomats.
    Senator Lugar. Well, you are ideally qualified to integrate 
all these personnel. We wish you well.
    Thank you, Mr. Chairman.
    General Eikenberry. Thank you, Senator.
    The Chairman. Thank you, Senator Lugar.
    Senator Kaufman.
    Senator Kaufman. Thank you, and thank you for doing this, 
taking on this heavy responsibility.
    To follow up on Senator Lugar's question, clearly there are 
a lot of people in Afghanistan, most people feel that way about 
the Taliban. They don't like the Taliban. And clearly, it stops 
at 7 o'clock.
    But isn't there beginning to develop in Afghanistan a 
feeling that they also don't like this war? They don't like the 
battle not just at night, but during the day? And that doesn't 
that kind of constrain how much time we have to kind of 
straighten this problem out?
    General Eikenberry. Senator, those are important points. I 
think that the Afghans have two frustrations. One is that they 
are aware of the threat that comes from Pakistan. They suffer 
greatly from that threat. There is a degree of impatience that 
comes with that awareness.
    The second is a growing concern with the lack of 
development of their government.
    So, yes, we don't have an unlimited amount of time here, 
Senator Kaufman. Time is not necessarily with us, unless we 
develop and implement a more effective strategy.
    Senator Kaufman. I know you said it several times, and I 
know people are interested. You explained kind of the moderate 
Taliban. I mean, I think to a lot of people there is only one 
kind of Taliban, and I think you explained very well what it is 
we are shooting for in terms of working with maybe the moderate 
Taliban.
    General Eikenberry. Senator, there are all kinds of 
Taliban, as you know. I remember attending a meeting with 
Afghan government leaders in 2004. One of the leaders stoop up 
and said, ``You will recall that at one time, most of us here 
were Taliban.'' There are former Taliban who serve in the 
parliament of Afghanistan. There was a very capable former 
Taliban who served as the Governor of Uruzgan.
    So it is critical that we make a distinction between who is 
the irreconcilable enemies of Afghanistan and those, through a 
process of reconciliation, who can be brought on side.
    Senator Kaufman. Obviously, there is no one better suited 
to deal with coordination between State and Defense, having 
held the Defense post there and now going into the State post. 
Can you talk a little bit about your ideas on how to better 
integrate how State and Defense work in Afghanistan?
    General Eikenberry. Well, first and foremost, Senator, is 
the example that gets set at the very top between the Chief of 
Mission, between the United States Ambassador, and between the 
senior U.S. military commander. We have seen that, generally, 
people down the chain will follow that example.
    Beyond this, we must integrate planning efforts between the 
U.S. Embassy and U.S. military command, of the NATO command, 
the United Nations mission and the entire international 
community.
    And, finally, we must increase our presence in the regions 
and provinces.
    And I am confident that the military in Afghanistan will 
welcome that increased presence.
    Senator Kaufman. Great. Kind of follow up on that. What do 
you see the state of developmental aid in Afghanistan right 
now?
    General Eikenberry. There has been--over the past 6 or 7 
years, there has been, Senator, some remarkable progress that 
you are aware that we can point to--roads being built, many 
schools being opened.
    A great example, in 2001, there were in Afghanistan, some 
900,000 boys going to Taliban schools. Today, there are 7 
million children in school, and about 35 percent of those are 
females.
    What is needed, though, is more assistance provided to 
those ministries critical to central government control over 
the country. And then we need, as I had said earlier, to shift 
more resources to efforts at the district level.
    The distance between the Government of Afghanistan in Kabul 
and the districts is too great. We still today need to help the 
Afghans provide more aid and assistance to the rural areas, 
which are the most troubled and the most vulnerable to Taliban 
extremists and narco-traffickers.
    Senator Kaufman. Can you talk just a few minutes about the 
opium trade, what your thoughts are?
    General Eikenberry. As I had said during my opening 
remarks, 90 percent of the world's opiates come from 
Afghanistan. Much work has been done to try to combat that 
problem, but there are two key metrics that we must consider.
    One metric of success, have we cut the connection of 
revenue from the opiate production to the terrorists and the 
insurgency? And the answer to that is no.
    The second metric for success is, have we been able to 
reduce significantly the degree to which the revenue of opiate 
production is undermining the Government of Afghanistan? And 
the answer to that question is also no.
    So in spite of gains that we have made, in the main we 
would have to look at our policies and the results that we have 
on the ground right now as falling far short of success.
    Efforts have to be made to try to develop a more 
coordinated strategy. It is complex. It has to do with law 
enforcement, building judicial systems. It has to do with 
education. It has to do with developing alternative economies, 
What is the right mix.
    But I would also ask if more authority be given to those in 
the ground to more agilely move funds from one area to another 
because it is an interlinked problem. And second, I firmly 
believe that we have to think through our agricultural 
programs, our agricultural development and subsistence 
programs. Those are key to develop alternative economies so 
that we can give Afghan farmers a real choice.
    All of this is, of course, underpinned by security. 
Wherever the highest amount of poppy is being cultivated, are 
areas which are the most insecure.
    Senator Kaufman. Thank you.
    And you know I am a big believer in the right person in the 
right place at the right time. And I think, because of your 
background, experience, and who are you, you are the right 
person at the right time. And I look forward to your working in 
Afghanistan, and I feel much better about our situation there.
    Thank you, Mr. Chairman.
    General Eikenberry. Thank you, Senator.
    The Chairman. Thank you, Senator Kaufman.
    Senator Isakson.
    Senator Isakson. Well, thank you, Mr. Chairman.
    General Eikenberry, I have to say I have had concern that 
we had the potential for a perfect storm in the months ahead 
due to a deteriorating situation in Pakistan on one hand, and a 
failure of NATO to help us more in Afghanistan on the other. 
And when I met with you the other day, and you were kind enough 
to come to my office, I realized we had found the perfect 
nominee to face this perfect storm.
    I mean, you are coming from Brussels and NATO and going to 
Afghanistan. And given the fact you have been in 31 of 34 
provinces of Afghanistan and served in the military there, I 
join the chairman and the others to commend the administration 
on your nomination.
    Also, one of my dearest friend's son, CPT Hunter Hill, was 
called up to go to Afghanistan, and his specific charge was to 
lead some of the training of the Afghan police forces.
    When CPT Hill returned, we had a number of conversations, 
and from what he told me, and from what I heard during your 
testimony, one of the key things we have got to do is law 
enforcement and civilian rule of law training because it is 
something that is not a part of the Afghani culture. And that 
it is not just training police officers. It is actually talking 
about the rule of law and training the civilian population to 
respect the rule of law and its enforcement.
    So you had mentioned in your printed, prepared statement, 
the FDD program? The Focused District Development, which is 
focused directly, I think, on training military. Can you expand 
a little bit on that?
    General Eikenberry. Senator, the Focused District 
Development program was an initiative that was begun about a 
year ago, and the genesis of the program was the recognition 
that we could train an unlimited amount of Afghan national 
policemen, but unless they were properly mentored over a longer 
period of time, that anything achieved during the training--any 
technical competencies, but more important, ethical values 
training--could not be sustained. And that gets back to the 
culture you are talking about.
    So the Focused District Development program calls for the 
policemen from a troubled district at risk from the insurgency, 
to be temporarily relieved by a highly trained replacement 
force. And then over about an 8-week period, these policemen 
are trained in an area outside of the district. They then 
return with better leadership, and there is permanent mentoring 
maintained with them.
    The results to date have not been 100 percent successful. 
Very little is in a very difficult environment like 
Afghanistan. But they continue to get positive reviews. But, 
what is impudent here--with all the of the institutions in 
Afghanistan--is that it is not only about initial training, but 
it is also about sustained mentoring over time.
    And this is really a very important shortfall that we still 
have with the police program. We don't have an adequate number 
of police mentors. We should really expect our European allies 
to do more in this particular area.
    Senator Isakson. Yes, it seems like to me that when the 
Awakening took place in Anbar province in Iraq, it kind of was 
the sea change of difference when they came over and started 
helping enforce civilian law in Iraq. And if we can get the 
same type of thing, although it might not be an awakening in 
Afghanistan, we might have some military success. Maintaining 
it is going to depend on that police force.
    On NATO, since you are coming from NATO, I have two 
concerns. One, will they be willing to put the troops in 
necessary to complement what we are doing in our additional 
deployment, No. 1? And No. 2, if they do, will the rules of 
engagement be sufficient that they can be effective?
    Because I know in certain cases, even though troops have 
been committed from NATO countries, there have been rules of 
engagement that were restrictive in terms of the activities 
that could take place in Afghanistan. Any comments you would 
have on that I would like to hear.
    General Eikenberry. Senator, I think that NATO will send 
additional forces into Afghanistan to support the 20 August 
Presidential and provincial council elections. That will be 
important. Over time, what may be even more important for NATO 
is to provide more mentors, trainers, equipment, and money for 
the development of the Afghan national security forces.
    And then, as we have talked today, there is a need for more 
intellectual civiliam expertise of all kinds inside of 
Afghanistan, more resources, more money for reconstruction and 
development, more money for justice programs and rule of law 
programs. I think in that particular area not only NATO, but 
the entire international community not only needs to do more, 
but they should really be expected to do more.
    Senator Isakson. I guess my last question is focused on the 
border with Pakistan and the special operations there, but I 
have come to understand from listening to you and others that 
our military success in the long run is going to depend on more 
troops in the rural area and in the south part of Afghanistan. 
Is that correct?
    General Eikenberry. It is, Senator.
    Senator Isakson. OK. And that is where the Taliban, we 
anticipate, may make their next initiative?
    General Eikenberry. That is where--over the last 4 or 5 
years, that is where they have been trying to expand their 
presence. They have sanctuaries inside of Pakistan, and from 
those sanctuaries, they have continued to build up strength and 
influence inside of areas of Afghanistan. And those areas are 
not only along the borders of eastern Afghanistan and 
southeastern Afghanistan, but they have extended into the 
interior parts of the country of Afghanistan.
    Senator Isakson. Well, I thank you for your testimony, and 
particularly I thank you for your willingness to serve. I think 
you are a terrific nominee for a very difficult post, but 
exactly the right time.
    General Eikenberry. Thank you, Senator.
    The Chairman. Thank you, Senator Isakson.
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    And General, we welcome you here, and we appreciate your 
service, what you have done for this country in the past and 
what I know you will do for this country with this particular 
challenge that we have in Afghanistan.
    I have to say, we have a lot of nominees that come before 
us, and they are introduced by distinguished Americans, and 
their qualifications are reviewed and commended. But to have 
Senator Inouye and Senator Warner give you that kind of 
recommendation is high praise, indeed.
    In fact, I had to leave here to give a speech about the 
budget, and I was in the elevator with Senator Inouye. And he 
told me to make sure that we move this quickly. So we have 
another directive beyond what he said here. But we are grateful 
for what you have done.
    I wanted to talk about something that has been bothering me 
lately because of the experience in Iraq, the sense that often 
the American people weren't sure or we didn't do a very good 
job telling them what the goals were, what the objectives are 
in Iraq. And I really worry that we are--we could be headed 
down the same path unless we are careful.
    The President has made a determination, based upon a review 
of what is happening in Afghanistan and based upon consultation 
with our military leaders and others on the ground, that we 
need an increase in our troop levels by an additional 17,000 
troops. But I am very concerned and I think it is incumbent 
upon not only the President and his administration, but those 
of us in Congress to be very clear about why we are there, what 
the objective is, what the exit strategy is.
    And once we articulate that to the American people, once he 
does it and others amplify it, we have to keep saying it over 
and over and over again. Because unless we do that, all of the 
troop commitments, all of the resources, all of the good 
intentions won't matter because when the going gets tough and 
the sacrifices get even greater, we have to be able to sustain 
support for this mission.
    So the objectives are very important, and also I think the 
language is very important. When I was in Iraq in the summer of 
2007, I said to both General Petraeus and Ambassador Crocker, I 
said the President, then-President Bush, was using terminology 
like ``victory'' and ``defeat,'' which I thought was 
misleading. I thought it was misleading and inaccurate about 
what was going to happen in Iraq, no matter what the result 
was.
    So using that language is--even in this context I think is 
dangerous. Now maybe the word ``success'' is more accurate. So 
I really believe that we have a long way to go in articulating 
to the American people these basic points, the objectives of 
why we are there.
    The problem is we haven't spent a lot of time talking to 
them about this war. We have talked a lot about Iraq, and we 
have had debates for years about Iraq. The American people have 
not heard enough from their Government about this conflict, and 
I know you have a concern about that as well.
    So can you talk to me about that in terms of how, as 
someone who has had a distinguished military career, who has 
been a diplomat as well and understands the difficulty of 
communicating a message and sustaining support for a difficult 
engagement? Talk to me about that in terms of the leadership 
you can bring to those set of questions.
    General Eikenberry. Senator, I tried to articulate our 
goals, our objectives, and the stakes in Afghanistan, in my 
opening remarks. Our strategic objective inside of Afghanistan 
and Pakistan is to disrupt and eventually defeat the 
international terrorist networks that still threaten our 
homeland.
    On the Afghanistan side, we must help the Afghans create 
the conditions so that international terrorism will never 
regain a sanctuary there. We can see what the outlines of that 
program look like.
    It is helping develop Afghan national security forces that 
increasingly can secure their own people. It is helping develop 
governance in Afghanistan and a rule of law system so that 
those security forces operate in a foundation of good 
governance. It is also helping develop an economy so the 
Afghans can sustain themselves. All of this nested within a 
regional optimistic approach.
    It would be premature for me to talk about the strategic 
assessment. The President will very soon, I know, be talking to 
the public about his decisions with regard to that strategic 
assessment.
    What I would pledge, if confirmed as the Ambassador, 
Senator, is to work hard to communicate effectively to the 
American public and, of course, keep close contact with you. As 
I said, also in my opening remarks, I would welcome frequent 
trips of the United States Congress to Afghanistan in order for 
you to take stock of the situation firsthand, to make your own 
and, of course, to communicate your views to your 
constitutents.
    Senator Casey. I appreciate that. I think it is critically 
important.
    I have about a half a minute left. One of the difficult 
assignments you will have is bridging the gap between the 
military, military officials and our civilians serving in 
Afghanistan. I just wanted to have you comment about that. You 
obviously have a lot of experience in this area and that it is 
important.
    General Eikenberry. Senator, it is vital. In the course of 
my career I have served as a member of country teams in China 
and in Kabul. I know the importance of the close cooperation 
between the military and the civilian sides.
    As I said earlier, I pledge to set a good example and a 
very positive example by showing close collaboration with 
General David McKiernan, the commander of NATO ISAF and the 
commander of U.S. forces. I will also try to set the best 
example as a team player within the international community.
    Senator Casey. Thank you, General.
    The Chairman. Thank you, Senator Casey.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman, Senator Lugar.
    General, thank you so much for your testimony today, and 
thank you for the courtesy visit to my office. I enjoyed 
getting to know you, and I do want to thank you for your 
honorable and selfless service to our Nation, as a soldier, as 
a commander. And you have taken on some significant challenges, 
and this may be the biggest one of all.
    In your previous tours in Afghanistan, you have got a lot 
of experience and a lot of relationships to build on, and that 
gives us a lot of confidence in your ability to take on this 
challenge. The fact remains that Afghanistan is a critical 
front in what will continue to be a global war on terror, 
despite what some might want to call it these days.
    But I seriously doubt that our troops consider this a run-
of-the-mill overseas contingency deployment. You know that it 
is so much more than that, and they are taking the fight to 
terrorists on their turf instead of here in America.
    And as you know, until 2001, Afghanistan was an 
internationally neglected breeding ground for terrorist 
training and financing, and today, our brave men and women, 
along with our NATO partners and our other allies, battle 
terrorists who have been forced into the mountains and across 
into Pakistan.
    While I applaud the renewed focus that we are now hearing 
on Afghanistan and the efforts to update our strategy, I still 
have a lot of concerns, and you have covered many of them 
already. But my trips and my staff trips to Afghanistan, one of 
the challenges I don't think we have talked about much this 
morning really comes in the concern about United States 
assistance and the billions of dollars that we are spending in 
Afghanistan.
    With multiple campaign plans and 26 reconstruction teams 
acting kind of semi-independently, there doesn't appear to be a 
comprehensive, coordinated vision of what we need to do. So I 
am really concerned about the coordination, the oversight of 
reconstruction activities.
    When I was there and what I have heard from a number of 
folks who have been there, there is more emphasis on competing 
for U.S. assistance money and actually more interest in 
spending money than actually making it effective. And the 
reports now are showing as high as 70 percent of what we direct 
toward Afghanistan never gets there.
    And so, in your role as Ambassador, I would just like you 
to talk for a moment about how we are going to deal with a lack 
of coordination, the duplication of effort across Afghanistan? 
How can we get a coordinated approach, which I think is going 
to be more the emphasis now than fighting and troops, it is 
going to be training and building. And it is that 
infrastructure that is going to be important.
    So if you would just take a few minutes of our time here 
and comment on how we can coordinate the money we are spending?
    General Eikenberry. Thank you, Senator. These are very 
important questions.
    I would make three points on the reconstruction and 
development aid and assistance. As I said and as you are aware, 
we have had some good results on the ground. But there are 
three very important challenges that we have.
    Right now, we have many donors and aid programs directly 
from nations through the United Nations, and from very 
excellent NGOs. But the overall results are not efficient. In 
fact, we often fail to avoid duplication and identify gaps, and 
the result then is wastage.
    The second problem that we have is that about 70 percent of 
money being allocated is not getting to the Afghan people. It 
is not getting to the real targets of the aid, the Afghan 
people. This has to be looked at very carefully: Multiple 
contracts, too many subcontractors, and too few Afghan 
subcontractors.
    The third problem is at the provincial level. Inside the 
Provincial Reconstruction Teams, the military had a fairly 
large pot of money--the Commander's Emergency Response 
Program--but USAID and the Department of State do not have 
commensurate funds that can be flexibly disbursed.
    So perhaps we need to take a look at the mix of funds and 
authorities we provide at the provincial level. Senator, if 
confirmed, upon arriving in Afghanistan, I will asses these 
issues with the country team.
    Senator DeMint. Well, thank you.
    I know I have heard stories, for instance of--and this 
actually came from a missionary who got beyond where most of us 
are allowed to go when we were there--of money that was used to 
build a hospital. And so, they constructed it, but there were 
no plans to staff it or actually maintain it, but we spent the 
money for construction. So the part of the mission was 
accomplished, but it was not coordinated with the goal of 
actually operating a hospital and helping deliver healthcare.
    So you know that all better than I do, and you seem to have 
a grasp of what we need to do. But I think it is an incredible 
amount of money we are spending that maybe job two after 
winning the fighting part of the battle is making sure our 
money is spent well there.
    But thank you so much, and again, I appreciate your service 
to our country.
    Mr. Chairman, I yield back.
    The Chairman. Thank you, Senator DeMint. Appreciate that.
    Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    I am pleased that we will soon be receiving the much- 
needed review of our policy in Afghanistan and Pakistan that 
President Obama has ordered. It is my hope that this strategy 
will address the deteriorating situation in Afghanistan with a 
comprehensive and regional approach, recognizing the critical 
role that Pakistan plays when it comes to our Nation's security 
and, of course, to Afghanistan's stability.
    Pakistan has been the home to a strengthened and 
reconstituted al Qaeda for many years now. And so, I think we 
have to ensure that our actions in Afghanistan, including 
sending additional U.S. troops, do not make the situation worse 
in either country. We cannot afford to take an overly Afghan-
centric approach to a much broader problem.
    We also need to scale up our diplomatic engagement and 
redouble our commitment to reconstruction in order to help 
build a secure, stable Afghanistan in which insurgents and 
terrorists have no room to operate. We also need to keep in 
mind where the insurgents, along with al Qaeda, have found a 
safe haven--and obviously, as the witness knows very well, that 
is Pakistan--as we address a very complex and very serious 
threat to our national security.
    As we begin to shift to a new strategy, we will need an 
Ambassador who has a strong command of dynamics on the ground 
and in the region and can coordinate with many different 
actors, and I am pleased that General Eikenberry has been 
nominated to this post. I look forward to our discussion today.
    With the President's policy review expected to be rolled 
out later today, there has been a lot of discussion about the 
role of our military in Afghanistan and how we can address the 
significantly increased insecurity when much of that 
insecurity, again, is coming from across the border in 
Pakistan. If the goal of our Afghan mission is to make sure 
``al Qaeda cannot attack the U.S. homeland, U.S. interests, and 
our allies,'' as the President recently stated on 60 Minutes, 
how does Pakistan fit into that picture?
    General Eikenberry. Senator, the administration, the 
President, the Secretary of State have put great emphasis on a 
regional approach. They have stressed the interdependencies 
between Afghanistan and Pakistan. Indeed, a good part of the 
problem of the security situation in Afghanistan has to do with 
the al Qaeda and Taliban sanctuaries that existed and do exist 
inside of Pakistan.
    I think the administration will be continuing to emphasize 
a collaborative, combined regional diplomatic approach. With 
the appointment of Special Representative to Afghanistan and 
Pakistan Richard Holbrooke, it's clear the emphasis that the 
administration is placing on the Afghanistan-Pakistan combined 
approach.
    Some progress has been made. On the 24th and 25th of 
February, the administration invited leaders from the Afghan 
and the Pakistan Government to come to Washington, DC, for 
trilateral talks. The next round of those talks will be in 
early May.
    Very importantly, Senator, those talks will include not 
only economics, political issues, but they will specifically 
include intelligence. The way forward is clear, we will try to 
further intelligence collaboration between Afghanistan, the 
United States, NATO, Pakistan, and also to try to develop more 
collaborative security approaches. But this will not be easy.
    Senator Feingold. Absolutely not, and I appreciate your 
response. But I just hearken back to what I think was one of 
the real low points in the last administration. I think I heard 
it in this room when a witness said that with regard to Iraq, 
we do what we must, and with Afghanistan, we do what we can.
    This policy better not end up being we do what we must with 
regard to Afghanistan and what we can with regard to Pakistan 
because that is not going to work. And your comments obviously 
suggest that you understand that well.
    For the most part, conventional wisdom has been and 
continues to be that an increase of U.S. troops in Afghanistan 
is the right course of action. I have, as you know, been asking 
some questions about this decision, as well as the logic of 
deciding to send more troops to Afghanistan before the 
comprehensive review has been completed.
    I am also concerned that there is not a sufficient increase 
in political engagement or development or, again, an adequate 
focus on Pakistan. So, your comments on that?
    General Eikenberry. The troops that--the 17,000 troops, 
Senator, that President Obama has committed to and which are 
currently being deployed will be deployed, will be sent to the 
eastern and southern Afghanistan and provide more security, 
along with Afghan National Army and Police, to the rural areas, 
where Taliban has gained control.
    They will be committed to training Afghan National Army and 
Afghan National Police and to partnering with them to develop 
further capacities. The decision was a timely decision, a 
decision that had to be made.
    The President still has to make his public announcements 
about his decisions. But after those have been made, I look 
forward to working with the administration and consulting with 
you about the implementation of that strategy.
    Senator Feingold. Finally, can you lay out for me what you 
think is most urgently needed in terms of supporting the Afghan 
Government while also ensuring that we maintain our credibility 
among the Afghan people?
    General Eikenberry. Two areas, Senator. First, more effort 
for building the Afghan national security forces and, secondly, 
more effort needed to build accountability and rule of law 
within Afghanistan, which is absolutely critical if the people 
of Afghanistan are going to stay on side with the government.
    Senator Feingold. Thank you, sir.
    Mr. Chairman, I have finished my time.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    General Eikenberry, I apologize for missing your opening 
statement and much of this hearing. I had another commitment. 
But I do appreciate the critical nature of your nomination and 
the need to move forward as quickly as possible.
    I got a very personal reminder yesterday of just how 
critical our actions in Afghanistan are, when I talked to the 
parents of a 29-year-old Marine corporal from New Hampshire who 
was killed over the weekend in southern Afghanistan. And it was 
a very important reminder of making sure that our strategy in 
Afghanistan is worthy of the great sacrifices that men and 
women have made already in Afghanistan.
    So I do echo Senator Casey's comments about the importance 
of being clear with the American people about what our strategy 
is there and what we hope to accomplish.
    We had an interesting panel--it was really a roundtable 
discussion--before this committee about a month ago on 
Afghanistan, and one of the participants was a woman named 
Sarah Chayes, who I am sure you are familiar with. And she made 
a very important point, as did several of the other members of 
the panel, about the importance not of our military activities 
in Afghanistan, but about the other actions that we take to 
support those that can win over the Afghani people, and spoke 
to the importance of agriculture in doing that and also about 
addressing the poppy trade.
    And I wonder if you could speak to both of those? And 
particularly when you talk about the poppy trade, if you could 
talk about whether you think the eradication efforts are 
working, and if they are not, what alternatives do we have?
    General Eikenberry. Thank you, Senator.
    I do know Sarah Chayes, and I have immense respect for her 
insights based upon firsthand experience inside of Afghanistan.
    With regard, Senator, to the poppy trade, and it actually 
relates strongly to agriculture. I had said earlier that 
getting a handle on this is indispensable to our overall 
success inside of Afghanistan and Pakistan. We are ceding 
increasing areas to Taliban and to narcotraffickers, which 
stand against the legitimate Government of Afghanistan, and it 
increases the threat to all of us.
    Not all of the narcotrafficking money, of course, is going 
to the Taliban. Some of that money is going to what should be 
the legitimate Government of Afghanistan. So it is a very 
severe problem, and we need a multi-pronged approach to what is 
a very complex problem.
    We have to have better law enforcement, better justice 
systems, better education, the opportunity to produce 
alternative economies. And within that mix, eradication does 
play a role. There have been successful eradication programs. 
Interestingly, though, the most successful have been led by 
Afghan Governors and by the Afghans themselves.
    But I think the way forward will require, projecting the 
legitimate Government of Afghanistan's influence throughout the 
troubled places of Afghanistan where poppy production is 
highest. There is a very direct correlation between where is 
the most poppy being grown and the absence of the Government of 
Afghanistan and its security forces. So this is critical.
    Second, it is essential that some of the big drug barons of 
Afghanistan are brought to justice. There has to be 
accountability.
    And third, the need to develop functioning agricultural 
economies is really going to be essential here. It is not 
necessarily true that it is only in the areas of Afghanistan 
where there is no agricultural potential that poppy flourishes. 
Indeed, Helmand province, where a lot of poppy is being grown, 
is potentially a rich agricultural area.
    But delivering a comprehensive approach to help train 
farmers, develop rural roads that allow farmers to get their 
crops to market, and microfinancing is going to require much 
more effort on our part, and from the international community. 
I think that we should be and are exploring initiatives which 
will enable us to do this.
    Senator Shaheen. Thank you.
    I know there has been some discussion about Pakistan, a lot 
of discussion about the role of Pakistan and what happens in 
Afghanistan. But can you also talk about efforts to also try 
and engage India? Obviously, what happens between India and 
Pakistan is going to be important to get Pakistani attention to 
what is happening in the tribal areas.
    But can you talk about how important you think it is to 
engage India in supporting our efforts in Afghanistan and 
Pakistan?
    General Eikenberry. Senator, India makes a very positive 
contribution toward Afghanistan's development. It provides good 
agricultural programs. It has been a generous aid donor. It 
also has good capabilities for developing the Afghan civil 
service.
    So, India has a very important role to play, as do all of 
Afghanistan's neighbors.
    Senator Shaheen. And does that role create any tension with 
Pakistan?
    General Eikenberry. Pakistan and India have had a very 
difficult relationship at times, which--over the years--has 
seen points of severe tension and points of rapprochement. It 
is critical that the United States and other nations within the 
region find ways to have cooperative approaches made toward 
Afghanistan. It must not become a location of competition, but 
instead a location for cooperation.
    Senator Shaheen. Thank you very much.
    The Chairman. Thank you, Senator Shaheen.
    General, we are almost wrapped up here, but I do want to 
probe a little bit a couple of areas that concern me. And 
particularly one based on the answer that you gave to Senator 
Casey's question.
    Senator Casey asked you sort of about the general mission, 
et cetera, and keeping the support of folks. And you started to 
run down a list of things that we need to do, and I think I 
heard you say developing a system of government, developing an 
economy, et cetera. I began to get worried when I hear you 
saying all that. That is not what I certainly defined--I mean, 
there is some component of that, but that is, in my judgment, 
not our mission.
    And I want to hear with clarity what you are saying the 
mission is or what you understand it to be as we come out of 
this review because there are just going to be some limits, I 
think, speaking realistically. I think you have a sense of 
that.
    So, yes, we have to help them develop a system. But that is 
very--I mean, that is sort of what President Bush described, 
and that is not what I view as the current definition of the 
mission as we are thinking about it. We have to help them to 
help themselves. It is not up to us to develop a system of 
government. We have to help them to develop their economy, and 
it is up to the Europeans and a lot of people to be part of 
that.
    So I would like to hear you sort of reiterate with a 
clarity sort of how we are approaching this mission.
    General Eikenberry. Thank you, Mr. Chairman.
    Success in Afghanistan, and in Pakistan, is defeating al 
Qaeda and international terrorism that threatens our country. 
In order to achieve that, creating the conditions in 
Afghanistan so that we don't have the environment of the 1990s, 
which allowed al Qaeda and international terrorism to have open 
sanctuary, and safe haven in of Afghanistan.
    The Chairman. But al Qaeda is fundamentally not in 
Afghanistan today?
    General Eikenberry. Their presence inside of Pakistan, of 
course, fuels the insurgency and fuels attacks of terror inside 
of Afghanistan.
    The Chairman. But the mission of Afghanistan with respect 
to al Qaeda is to keep them from coming back. Correct?
    General Eikenberry. That is correct, Mr. Chairman.
    The Chairman. I mean, they have been driven out. They are 
not there.
    So with respect to al Qaeda--I mean, the quandary here is 
that the place where al Qaeda is, we aren't, and the difficulty 
is nor are the Pakistani Army or Government. There is some 
frontier corps that has the ability to penetrate here and 
there, but events in the northwest province in Swat seem to 
indicate an enormous challenge in that part of the area that 
none of this that we have talked about on Afghanistan is going 
to impact.
    I guess I should rephrase that. Success, if we are 
successful in reducing their capacity to penetrate Afghanistan, 
I think that will embolden our capacity in Pakistan.
    General Eikenberry. I believe also, Mr. Chairman, that your 
characterization is correct. If I was characterizing it as ``we 
will develop'' as opposed to ``we will assist the Afghans 
develop,'' then I would like to stand corrected because this is 
about enabling the Afghans to develop governance and rule of 
law, enabling the Afghans to develop their own security forces, 
enabling the Afghans to develop a sustainable economy.
    Those are the three critical components. When they come 
together, success would be defined then as an Afghan state 
strong enough to deny safe haven for international terrorism. 
We can succeed in Afghanistan, it is true. But if we don't 
address the problem, the linked problems in Pakistan, then we 
will have no lasting solution.
    But I would also say, Mr. Chairman, that if we don't move 
forward to try to achieve the success in Afghanistan as just 
outlined, then al Qaeda and their confederates will move into 
ungoverned space in Afghanistan as they did before, and they 
will set up shop there again.
    The Chairman. I concur with that, and I think that is the 
most significant rationale for why we have to find a footprint 
that works to prevent them from doing that. I know the 
President has three different sort of tiered alternatives in 
front of him as to how we might do that.
    What I am concerned about, and I think we have to be really 
careful of it, is--and you are an expert at this, and that is 
one of the reasons why we are glad you are going there. But 
finding that balance and the right level of that footprint 
where it is not so great that or incompetent that we are 
inviting people to push us out, that we invite an unwelcome 
departure, is critical. At the same time, we don't want to have 
such a level of military engagement and footprint that we are 
also inviting an unwelcome departure.
    So this is a very delicate balance, and I think in the 
process we want to be careful of how much we raise the stakes 
ourselves, on ourselves. The mission is to keep al Qaeda from 
coming back. It may take the Afghans a little longer to develop 
their government, but they haven't proven in the last 6 years a 
particular disposition to want to do that, frankly, and that is 
one of the reasons why the Taliban have been able to move back 
in because of the absence of governance.
    So I don't have a lot of--I mean, we want the government to 
succeed, but I think our strategy, as I think it is, is 
beginning to focus on how we empower people locally and 
provincially and otherwise and play to some of the tribal 
realities historically that would reempower people locally to 
be able to take control of their lives and reject the Taliban. 
Is that a fair statement of the balance here?
    General Eikenberry. Senator, without the President having 
made his public announcements on the strategic assessment, I 
would be premature in commenting. The particular balance, 
though, that you are talking about is certainly part of the 
equation.
    After the assessment has been decided upon, if I am 
confirmed, I would look forward then to implementing that 
strategy and to staying in close consultation with you----
    The Chairman. Are you confident--are you confident, 
General, of the ability of the level of forces that we are 
talking about to maintain a sufficient level of security that 
we can actually enforce this transformation at the local level?
    General Eikenberry. Mr. Chairman, I would ask for time to 
look at the assessment, and look at the numbers that are being 
discussed. What I know is that regarding the Afghan National 
Army, their growing competence provides a real opportunity, and 
there are more possibilities with the police.
    And this gets back to your point about making sure that 
this is Afghan led and enabled and is not all about our own 
forces.
    The Chairman. And just a final question. With respect to 
Pakistan, do you have any recommendations to the committee as 
to what steps you think are feasible, immediately tangible, 
that could make a difference with respect to the border and the 
FATAH and what has happened in the northwest province? What is 
your sense of the ideal of what would make a difference?
    General Eikenberry. Chairman, trying to get immediate 
gains, as you know, is very difficult in Afghanistan and 
Pakistan. But what will be important is more honest 
collaborative exchanges of intelligence and a willingness to 
conduct combined operations between the United States, 
Pakistan, and Afghanistan.
    Second, focused aid and assistance programs to the Pakistan 
military that can give them the capabilities and the 
wherewithal to attack al Qaeda and the extremists that are 
along the border areas and in the northwest frontier province.
    And third, helping the Pakistanis develop effective aid 
programs, just as you have talked about Afghan development, it 
is important that the Pakistani authorities adopt the same 
approach on their own side of the border and find ways to 
collaborate with Afghanistan to create combined win-win 
economic programs.
    The Chairman. Thank you, General.
    Senator Lugar, are you all set?
    Senator Shaheen, do you have any more questions?
    Well, General, we really appreciate your willingness to 
take this very complicated task on, and we wish you well in it.
    We are going to meet next Tuesday. The record will stay 
open just for 24 hours in case anybody has any written question 
they want to submit. I don't think there will be. But we will 
try to expedite this out next week, and hopefully, your bags 
are packed, and you are ready to go.
    Thank you, sir.
    General Eikenberry. Thank you very much, Chairman.
    My wife has told me that our bags are packed.
    The Chairman. Good to hear. Thanks.
    We stand adjourned. Thank you.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


            Prepared Statement of Hon. Christopher J. Dodd, 
                     U.S. Senator From Connecticut

    Mr. Chairman, thank you for holding this important hearing today. 
General Eikenberry, congratulations on your nomination, and thank you 
for your tremendous service to our Nation. I have no doubt that your 
professionalism, wisdom, and vast experience--including service in key 
positions in Afghanistan and Brussels--will be tremendous assets to the 
administration as it formulates, coordinates with our NATO allies, and 
implements its policies in Afghanistan.
    It has been nearly 8 years since the U.S. began military operations 
in Afghanistan. It should come as no surprise to anyone that, while 
coalition and Afghan forces have made gains against Taliban and al 
Qaeda operations, these gains have too often been fragile and 
reversible. Within the paradigm of a ``clear and hold'' strategy, our 
forces have demonstrated the former but our policy has, frankly, lacked 
a cohesive, sustainable approach to the latter. Throughout much of the 
country, the strength of the Afghan central government is tenuous at 
best, and the Taliban and al Qaeda continue to operate with impunity in 
large expanses of Afghanistan and neighboring Pakistan. The violence, 
terrorism, weak governance and burgeoning drug trade in those areas 
represent a great challenge to American security and interests and 
those of our European allies.
    What's long been missing, in my view, is a coherent U.S. national 
policy--a clear statement of our objectives and a clear plan for 
achieving them. The previous administration took its eye off the ball, 
with catastrophic consequences, and it is our obligation to put things 
on track. We need to work with our NATO allies--to consult with them 
and listen to them--and agree on a strategy to which each of us can 
bring our strengths. I'm among those who have chafed at our allies' 
``caveats'' on their participation, but I'm also among those who have 
chafed at our failure to develop a strategy that maximizes what each 
can bring to the battle. In this regard, I welcome France's return to 
full and active NATO membership.
    The challenges we face in Afghanistan must be approached 
holistically. Just throwing more troops onto the battlefield is not a 
solution. We must recognize that military force alone cannot overcome 
the challenge. We need a strategy for civilian government to ``hold'' 
what coalition military forces ``clear''--a strategy that builds the 
political and civilian capacity of the Afghan Government. Such a 
strategy must also include a renewed focus on humanitarian and economic 
development, particularly in remote rural areas in which the drug 
trade, the Taliban and al Qaeda exploit the lack of any government 
presence.
    General Eikenberry, as the President's personal representative and 
our country's senior diplomat in Kabul, you will be an important 
partner in the rigorous examination of our military strategy and 
tactics in Afghanistan. I do not doubt for a moment the immense 
difficulty of conducting combat operations in Afghanistan, or the 
bravery of our soldiers and those of our NATO allies. But we run a risk 
of alienating the Afghan population if we can't convince them that we 
are taking every possible step, as I know we do, to avoid accidental 
civilian casualties. We must win the support of Afghans across the 
country in order to help them build a safe, stable, and secure country.
    In addition to rethinking our civil-military strategies inside 
Afghanistan, I believe that we must recognize the broader regional 
challenges we face, and in that regard I applaud the appointment of 
Ambassador Holbrooke as Special Envoy to Pakistan and Afghanistan as an 
important step forward. The instability in Afghanistan is inextricably 
linked with security problems in Pakistan. It is only through a 
combined diplomatic, political, and military effort involving 
Afghanistan's neighbors that we can adequately address this conflict. 
When appropriate, this should include better sharing of intelligence, 
improved coordination, and most important, better bilateral cooperation 
between Afghanistan and Pakistan.
    The tasks ahead are challenging but not impossible. The Obama 
administration has already taken a number of positive steps--and your 
nomination is among the most significant--and I am optimistic of major 
progress. Thank you again for your service, and I look forward to 
working with you in your new capacity.
                                 ______
                                 

            Prepared Statement of Hon. Russell D. Feingold, 
                      U.S. Senator From Wisconsin

    I am very pleased that we will soon be receiving the much-needed 
review of our policy in Afghanistan and Pakistan that President Obama 
ordered. It is my hope that this strategy will address the 
deteriorating situation in Afghanistan with a comprehensive and 
regional approach, recognizing the critical role Pakistan plays when it 
comes to our national security and, of course, to Afghanistan's 
stability. Pakistan has been the home to a strengthened and 
reconstituted al Qaeda for many years now, and we must ensure that our 
actions in Afghanistan--including sending additional U.S. troops--do 
not make the situation worse in either country. We cannot afford to 
take an Afghan-centric approach to a much broader problem.
    We also need to scale up our diplomatic engagement and redouble our 
commitment to reconstruction in order to help build a secure, stable 
Afghanistan in which insurgents and terrorists have no room to operate. 
But we also need to keep in mind where the insurgents, along with al 
Qaeda, have found a safe haven--Pakistan--as we address a very complex 
and very serious threat to our national security.
    As we begin to shift to a new strategy, we will need an ambassador 
who has a strong command of dynamics on the ground and in the region, 
and can coordinate with the many different actors. I am pleased that 
General Eikenberry has been nominated to this post and look forward to 
our discussion today.
                                 ______
                                 

         Responses of Ambassador-Designate Karl Eikenberry to 
      Questions Submitted for the Record by Senator John F. Kerry

    Question. How does the Obama administration define the mission in 
Afghanistan (e.g., our specific goals)?

    Answer. On March 27, the President said the goal of our mission in 
Afghanistan is to disrupt, dismantle, and defeat al Qaeda in Pakistan 
and Afghanistan, and to prevent their return to either country in the 
future. Our mission in Afghanistan is focused on confronting a common 
enemy that threatens the United States, our friends and allies, and the 
people of Afghanistan and Pakistan who have suffered the most at the 
hands of violent extremists.

    Question. How--specifically--will the administration's strategy 
toward Afghanistan differ from that of its predecessor?

    Answer. On March 27, the President said the goal of our mission in 
Afghanistan is to disrupt, dismantle, and defeat al Qaeda in Pakistan 
and Afghanistan, and to prevent their return to either country in the 
future. The administration has also indicated its new approach by 
appointing Ambassador Richard Holbrooke to serve as Special 
Representative for both countries and to work with GEN David Petraeus 
to integrate our civilian and military efforts. As the President stated 
on March 27, the administration's goal is to enhance the military, 
governance, and economic capacity of Afghanistan and Pakistan, and 
defeat an enemy that heeds no borders or laws of war.

    Question. As Ambassador, would you report through the Special 
Representative for Afghanistan and Pakistan, or the Assistant Secretary 
of State for South and Central Asian Affairs--or both? If both, please 
explain how you see this coordination working in practice.

    Answer. I envision a strong working relationship with all senior 
policy members of the administration, if confirmed as Ambassador. As 
Ambassador, I would be the President's personal representative 
reporting to him through the Secretary of State and the Special 
Representative. I would also expect to coordinate closely with other 
senior officials.

    Question. We have heard for a number of years that greater civil-
military coordination is required--both within the U.S. Government, and 
among the military and civilian branches of our allies. What lessons 
would you bring to the civilian effort based on your two tours of 
military service in Afghanistan?

    Answer. My professional experience in Afghanistan has reinforced my 
belief that to achieve greater success in Afghanistan, full civilian-
military capabilities must be completely integrated and mutually 
supportive. My staff and I would meet regularly with our military 
counterparts to ensure coordination of our efforts to strengthen Afghan 
capacity in governance, security, and development.

    Question. What specific steps do you envision taking to improve 
coordination between the U.S. Embassies in Kabul and Islamabad to make 
sure our activities along the border are coordinated?

    Answer. I envision strong coordination with our Embassy colleagues 
in Pakistan. To ensure our activities along the border are coordinated, 
I believe frequent conversations with Ambassador Patterson and 
integration of our country teams through constant information exchange 
is integral to defeating enemy safe havens in the border region. Both 
Embassies have border coordination officers who are in close touch and 
we would use those officers as well as new mechanisms such as 
interagency trilateral meetings to ensure better coordination.

    Question. The August elections will be an important opportunity for 
the central government in Kabul to respond to growing local concerns 
over governance. How will you and your staff work to ensure elections 
are free and fair and not marred by security, logistics, and budget 
concerns?

    Answer. The U.S. Government and the international community are 
providing expertise and financial support in coordination with the 
Afghan Independent Election Commission and the United Nations to ensure 
legitimate and secure elections in August. I would ensure that joint 
planning between Afghan officials and international representatives is 
cohesive and focused on ensuring that Afghan voters will be able to 
make their choices freely and fairly.

    Question. As the current Deputy Chairman of NATO's Military 
Committee and the Commander of Combined Forces Command-Afghanistan, you 
have had considerable experience working with our allies. What will be 
your advice to President Obama on this front before the 60th 
anniversary NATO summit scheduled for April 3-4, 2009?

    Answer. Our allies have a critical role to play in Afghanistan. I 
would note that many of our allies have indicated a strong desire to be 
more effective in Afghanistan and specifically to support this 
administration's new strategy, including through the appointment of 
Special Representatives and the provision of more civilian and military 
resources. We will need to focus on areas of strength for our allies as 
we consult with them on what more they can do to work with us and the 
Afghans.

    Question. Earlier this month, President Obama discussed the idea of 
negotiations with some Pashtun leaders who had previously supported the 
Taliban--presumably groups who are willing to renounce violence and 
join the political process. Who do you identify as reconcilable 
elements in Afghanistan with whom we might be able to reach a political 
settlement?

    Answer. Integration of reconcilable elements into Afghan society 
must be Afghan-led and we will support the Afghan Government in 
developing a reconciliation effort led by provincial governors.

    Question. How do you characterize Iran's current and potential 
future role(s) in Afghanistan? What type of interaction, if any, will 
U.S. diplomats have with Iranian representatives at the upcoming Hague 
Conference on Afghanistan?

    Answer. The President stated on March 27 his intent to forge a new 
contact group, together with the United Nations, for Afghanistan and 
Pakistan that brings together all who have a stake in the security of 
the region, including Iran. We welcome the participation of Iran in the 
Hague Conference, which will be an opportunity for all to reiterate 
their interest in a secure and stable Afghanistan.
                                 ______
                                 

    Responses of Ambassador-Designate Karl Eikenberry to Questions 
        Submitted for the Record by Senator Robert P. Casey, Jr.

                     civilian-military relationship
    Question. General Eikenberry, you are one of a few senior military 
officers to be nominated as a United States Ambassador. You will be our 
most senior diplomat in Afghanistan, but you also have a long and 
distinguished military career which will shape your perspective. You 
are uniquely positioned to bridge the gap between our civilian and 
military officials serving in Afghanistan, a challenge cited by several 
experts as the U.S. enters a critical phase in the war. The Obama 
administration rightly focuses on our military priorities, but it 
should also be concentrating on post-conflict and long-term development 
strategies--missions our civilian agencies, like the Department of 
State, Agency of International Development, and Department of 
Agriculture, are highly proficient at executing.
    The Obama administration has emphasized that, for too long, U.S. 
national security has over-relied on our military instruments of power 
at the expense of civilian instruments like diplomacy and development. 
The President and Secretary of State have made clear that they intend 
to change that skewed balance.
    Are you concerned that the nomination of a career military officer 
to one of our most critical diplomatic posts undercuts that message of 
change?
    As the head of our country team in Afghanistan, how will you 
attempt to foster improved coordination between our military and 
civilian officers? How will you balance the competing priorities of our 
services and other government agencies?
    Did your tour as Commander of Combined Forces Command-Afghanistan 
prepare you at all for the challenge of facilitating civil-military 
operations?

    Answer. I believe that my professional experience has prepared me 
well for the position as the United States Ambassador to Afghanistan. 
My professional experience in Afghanistan has reinforced what I have 
learned throughout my career--lasting security can only be delivered 
through coordinated diplomatic, economic, and military means. Secretary 
Clinton has identified the same priority objective of integrating 
civilian and military capabilities in support of the mission identified 
by the President. She has assigned exceptionally capable and 
experienced senior Foreign Service officers to the Kabul mission 
leadership team for this specific purpose. If confirmed, I look forward 
to working with all members of the country team to enhance civilian and 
military coordination for a unified effort.
        national elections and the writ of the afghan government
    Question. In August, Afghanistan will hold national elections, and 
President Karzai could face serious challengers. He has long been 
depicted as ``America's guy,'' but blanket American support for Karzai 
appears to be waning. The administration did not react positively to 
Karzai's insistence that elections be held in the spring, which 
contradicted the Afghan Election Commission's view that security 
conditions would be more favorable in August. I also have particular 
concerns about the magnitude of corruption that has plagued Karzai's 
government the past couple of years, and I am unsure he has the mandate 
of authority outside Kabul to convince provincial Afghans to support 
the central government instead of the Taliban.
    You already have a relationship with President Karzai from your 
tour in Afghanistan; what type of influence can you exert on the 
President to deal with corruption more effectively? Can you assess 
Karzai's chances in the August election? Does the Obama administration 
intend to support Karzai, or any candidate, in this year's elections, 
or should the U.S. stay neutral?
    How prevalent is support for the Taliban right now? Has Karzai's 
inability to extend the mandate of the government into the provinces 
and tackle corruption increased support for the Taliban?
    What role do Provincial Reconstruction Teams play in building local 
governmental capacity in order to attract Afghans away from the 
Taliban?

    Answer. August elections will be an Afghan-led process offering the 
people of Afghanistan the opportunity to choose their own leadership. 
The United States supports a free, fair, and open process for elections 
without a preference for any candidate.
    The Afghan Government has taken initial steps to tackle the problem 
of corruption, but a culture of impunity continues to thrive. The 
United States will continue to work with the Government of Afghanistan 
and the donor community to reduce corruption and promote government 
legitimacy. We judge that overall support for the Taliban is not high 
and that there is little ideological support.
    Provincial Reconstructions teams will work with local 
representatives of the Independent Electoral Commission and other 
Afghan and U.N. officials to facilitate holding legitimate and secure 
elections. This work will be a key element of their overall mission to 
develop Afghan civilian expertise at the provincial and district 
levels. The teams will also coordinate their efforts with any 
international elections monitors who will be important in ensuring the 
legitimacy of the elections.

    Question. President Karzai's term ends in May, but elections are 
not planned until August. If the United States supports Karzai staying 
in his capacity as President until the elections, it could be viewed by 
Afghans as implicit U.S. support for Karzai's candidacy, should he seek 
reelection.
    How will the administration handle the potential power vacuum 
between the end of Karzai's term in May and elections in August? Do you 
agree that if Karzai holds office between May and August, Afghans will 
perceive this as American endorsement of his candidacy?

    Answer. The United States had called upon Afghanistan's leaders to 
find a formula within the constitutional framework for ensuring the 
continuity, legitimacy, and stability of government through the 
election period from May to August. On March 29, the Supreme Court of 
Afghanistan determined that President Karzai should remain in office 
until a new leader is chosen. The United States strongly supports the 
decision of the Supreme Court and urges all Afghans to support this 
ruling. The United States has no preference for any particular 
candidate.
                            afghan refugees
    Question. Since 2002, nearly 5 million Afghan refugees have 
returned from Pakistan and Iran. This is indeed an accomplishment for 
the Government of Afghanistan and the United Nations High Commissioner 
on Refugees. Yet, UNHCR estimates that roughly 3 million Afghan 
refugees continue to live in camps in Pakistan and Iran. Not only is 
this a serious humanitarian concern, but I also believe the refugee 
crisis has the ability to be a destabilizing force in Afghanistan and 
along its borders.
    What steps will the U.S. Embassy take to work with UNHCR and the 
Afghan Government on the resettlement of Afghan refugees?
    President Obama will dispatch Principal Deputy Assistant Secretary 
of State Patrick Moon to Moscow to engage Iran on Afghanistan; would 
you recommend to the President that the U.S. put the refugee crisis on 
the United States-Iranian agenda?

    Answer. If confirmed, I look forward to working with the Refugee 
Coordinator's office within the Embassy, UNHCR, and the Afghan 
Government on the best approach to refugee returns to ensure long-term 
success of the overall return effort. Building capacity will be key to 
ensuring implementation of the Afghan Government's initiatives for 
refugees, returnees, and internally displaced persons.
    The United States and Iran share a common interest in ensuring 
protection for refugees. I look forward to strengthening further and 
supporting multilateral mechanisms for finding solutions to this 
humanitarian challenge.
                                 ______
                                 

    Responses of Ambassador-Designate Karl Eikenberry to Questions 
          Submitted for the Record by Senator Robert Menendez

                    usaid casualties in afghanistan
    Question. USAID and the Government Accountability Office have 
reported that a total of 407 persons employed on USAID-funded projects 
in Afghanistan were killed during the period 2002-October 31, 2008. 
This figure includes USAID contractors, subcontractors, direct hire 
employees, and locally hired employees.
    Afghanistan presents a risky environment for conducting development 
work, but carrying out such work, in the areas that are most vulnerable 
to insurgent attacks, is a critical component of our mission there. If 
the administration's plans for Afghanistan include a substantial 
increase in the number of civilians working at the provincial and 
district levels, it is likely there will be a corresponding increase in 
the number of USAID and other civilian employees who will be injured or 
killed.
    Based on your prior experience in Afghanistan, do you feel the U.S. 
Government has done an adequate job in protecting civilian employees 
who are working on development and reconstruction projects?

    Answer. Parts of Afghanistan pose extremely dangerous environments. 
The situation on the ground varies significantly across parts of the 
country and has changed over time. The anticipated increase in the 
presence of USAID contractors, subcontractors, direct and locally hired 
employees in the coming year will pose security challenges. If 
confirmed, I will make the protection of the lives of American 
civilians and the local citizens we employ in support of our mission a 
top priority.

    Question. As Chief of Mission, how would you strike a balance 
between the need to adequately protect civilian employees from harm, 
and the need for civilians to engage with Afghans on a local level?

    Answer. The security situation in Afghanistan is increasingly 
difficult. If confirmed, I will review and assess our security 
guidelines and procedures in Afghanistan to ensure we afford the best 
protection to all U.S. and local civilian employees, as we execute our 
mission. Key areas of emphasis are the best use of all sources of 
intelligence, the utilization of the most effective technologies and 
equipment, and the adoption of the best procedures and risk assessment 
methodologies. Maintaining excellent working relationships with NATO-
ISAF, U.S. Forces Afghanistan, and the Afghan National Security Forces 
is also important. Last, I will ensure that the Embassy's Regional 
Security Office strikes a proper balance between the need to adequately 
protect civilian employees from harm, and the need for civilians to 
engage with Afghans on a local level.
                    afghanistan reconstruction funds
    Question. The Special Inspector General for Afghanistan 
Reconstruction recently testified before the House Armed Services 
Committee that the Afghan Government and ministries are seeking to be 
more involved in planning and contracting for reconstruction projects.
    Based on your experience in Afghanistan, what role do you think 
Afghan ministries should play in planning and contracting for U.S.-
funded reconstruction projects?

    Answer. Building the capacity of the Afghan Government is a 
priority of the international community. There are several excellent 
examples in Afghanistan of capable ministers and ministries competently 
planning and implementing nationwide programs. I intend to build upon 
these successes and wherever possible ensure that money allocated for 
the development of Afghanistan is used in Afghanistan and not dispersed 
through unnecessary layers of expensive contractors. In all cases, our 
assistance could aim to accomplish the purpose of the project through 
building Afghan capacity.

    Question. If confirmed, what would you consider your 
responsibilities to be as Chief of Mission in overseeing the 
expenditure of U.S. reconstruction funds in Afghanistan, and mitigating 
waste?

    Answer. If confirmed, I will consider overseeing the effective 
expenditures of all U.S. reconstruction funds one of my top priorities. 
I have a responsibility to the President, the Congress, and the 
American people to accurately account for U.S. spending in Afghanistan 
and aggressively seek to mitigate waste. In this regard, I believe the 
Special Inspector General for Afghanistan Reconstruction (SIGAR) plays 
an important and positive role. I look forward to working closely with 
the Special Inspector General to achieve our shared goals.
                               corruption
    Question. Transparency International has ranked Afghanistan as one 
of the most corrupt countries in the world, and U.N. Special Envoy Kai 
Eide describes corruption in Afghanistan as being ``endemic.'' 
Corruption at the highest levels of the national government has 
contributed to a general loss of confidence in government officials, a 
situation that has been exploited by the Taliban.
    As Ambassador, what steps would you take to confront the culture of 
corruption that has so weakened the Afghan national government?

    Answer. Corruption is endemic in Afghanistan and one of the 
greatest challenges to establishing the rule of law. If confirmed, I 
look forward to working with the Afghan Government UNAMA and the donor 
community to seek concrete, achievable benchmarks to fight corruption. 
We must help train and mentor our Afghan partners to develop necessary 
fiscal planning and delivery skills, and ensure accountability through 
transparency underpinned by a functioning legal framework.
                                 ______
                                 

    Responses of Ambassador-Designate Karl Eikenberry to Questions 
             Submitted for the Record by Senator Jim DeMint

                           counter narcotics
    Question. General, I understand there are some very successful 
training programs right now in Afghanistan. Among them, the Afghan 
Narcotics Interdiction Unit, which I understand made the biggest drug 
bust in history last June--confiscating more than 261 tons of hashish, 
with a street value of $400 million.
    Can you comment on the success of the Narcotics Interdiction Unit? 
It appears that this training program has been much more effective than 
the INL Civilian Police Training program. As Ambassador what will you 
do to support effective counternarcotics programs?

    Answer. The National Interdiction Unit has established a positive 
track record. It is one of three small, specialized vetted units within 
the Counter Narcotics Police of Afghanistan. The success of the unit 
demonstrates progress that can be made with focused training and 
mentoring. We have seen some progress within the Civilian Police 
Training program realized through the ongoing implementation of the 
Focused District Development Program. However, there exists today very 
serious problems of leadership accountability, corruption, inadequate 
material resources, severe shortage of international police trainers, 
and the lack of a comprehensive approach to the development of an 
Afghan justice system. If confirmed, I look forward to close 
coordination with all U.S. Government agencies and in support of the 
President's strategy for effective counternarcotics programs, and close 
collaboration with key international organizations.
                         afghan police training
    Question. General, we continue to hear that there is a need to 
train police at the local level--and that funds to the central 
government in Kabul are simply not filtering down to small villages 
across the country to build security and safety for the Afghan people. 
I understand there has been a requirement for 2,500 police mentors to 
be deployed across Afghanistan at the local level, and this requirement 
has remained unfilled since 2006.
    Do you believe these mentor teams are vital to provide security and 
build the trust of the Afghan people in the villages? Do you support 
filling the requirement for Police Mentor Teams?

    Answer. Pairing Police Mentor Teams (PMTs) with the Afghan National 
Police has increased ability of the police to perform patrols, conduct 
checkpoints and manage the daily requirements of policing and community 
outreach at the local and district level. An essential element for a 
police unit to reach operational independence is its ability to provide 
security and to be a trusted resource for the local population.
    Through outreach to local leaders and a more visible and 
established presence, Afghan National Police are developing the 
necessary skills to develop trusted relationships with local 
populations. The deployment of an additional 4,000 troops for mentoring 
and training the Afghan National Police and Afghan National Army, as 
recently announced by the President, will assist overall efforts, but 
the international community must also do much more. If confirmed, I 
will support the efforts of the Department of State and Defense 
Department to provide additional civilian police personnel and then ask 
our allies to assist in this critical effort.

                                  <all>

</pre></body></html>
